No.

In the Supreme Court of the United States
STEVEN EDWARD STRUVE, PETITIONER,
v.
STATE OF IOWA
ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF IOWA

PETITION FOR A WRIT OF CERTIORARI

VIDHYA K. REDDY
ASSISTANT APPELLATE
DEFENDER
Fourth Floor
Lucas Building
321 E. 12th St.
Des Moines, IA 50319
(515) 281-8841
DANIEL R. ORTIZ
UNIVERSITY OF
VIRGINIA SCHOOL OF
LAW SUPREME COURT
LITIGATION CLINIC
580 Massie Road
Charlottesville, VA
22903

JEREMY C. MARWELL
Counsel of Record
JAMES T. DAWSON
VINSON & ELKINS LLP
2200 Pennsylvania Ave.,
NW, Suite 500 West
Washington, DC 20037
(202) 639-6507
jmarwell@velaw.com

QUESTION PRESENTED
More than 20 states have laws that prohibit
sending text messages on a cellphone while driving,
but allow drivers to use their cellphones for other
purposes, such as navigation or playing music.
The question presented is:
Whether police officers in those states have
reasonable suspicion under the Fourth Amendment to
initiate an investigatory traffic stop, where they
observe a driver briefly holding and manipulating a
cellphone, in a manner that does not indicate whether
the cellphone is being used for a lawful or prohibited
purpose.

(I)

II
RELATED PROCEEDINGS
Supreme Court of Iowa:
State of Iowa v. Struve, No. 19-1614 (Feb. 19, 2021),
rehearing denied, Apr. 6, 2021
Iowa District Court for the County of Clinton:
State of Iowa v. Struve, No. FECR076297 (June 5,
2019, order denying defendant’s motion to
suppress) (Aug. 12, 2019, verdict and order
regarding plea agreement)

III
TABLE OF CONTENTS
Page
Question Presented...................................................... I
Related Proceedings ...................................................II
Table Of Authorities ................................................. VI
Opinion Below ............................................................. 1
Jurisdiction ................................................................. 1
Constitutional Provisions Involved ............................ 1
Introduction ................................................................ 2
Statement .................................................................... 5
Reasons For Granting The Petition ......................... 10
I.

The Decision Below Deepens An Entrenched
Split of Authority. .............................................. 10
A. The Iowa Supreme Court Adopted the
Minority Position. ............................................ 10
B. In Other Jurisdictions With Similar Laws,
Reasonable Suspicion Requires More Than
Observing A Driver Using a Cellphone. ......... 13

II. The Decision Below Is Wrong. .......................... 17
A. The Officers Failed to Observe Conduct
That Indicates Impermissible Cellphone
Use. ................................................................... 17
B. The Iowa Supreme Court’s Flawed
Probabilistic Analysis Did Not Establish
Reasonable Suspicion. ..................................... 21
C. Enforcement Concerns Do Not Justify
Weakening Core Fourth Amendment
Protections. ...................................................... 26

IV
III. This Case Is An Ideal Vehicle To Address
This Important And Frequently Recurring
Question ............................................................. 27
Conclusion ................................................................. 31

V
APPENDIX CONTENTS
Page
APPENDIX A: Procedendo of the Supreme
Court of Iowa, State of Iowa v. Struve, No.
19-1614 (Feb. 19, 2021) (Apr. 6, 2021) ..................... 1a
APPENDIX B: Order of the Supreme Court
of Iowa Denying Petition for Rehearing,
State of Iowa v. Struve, No. 19-1614 (Feb.
19, 2021) (Apr. 6, 2021) ............................................ 3a
APPENDIX C: Opinion of the Supreme
Court of Iowa, State of Iowa v. Struve, No.
19-1614 (Feb. 19, 2021) ............................................ 4a
APPENDIX D: Verdict and Order Regarding Plea Agreement, State of Iowa v. Struve,
No. FECR076297 (Aug. 12, 2019) .......................... 49a
APPENDIX E: Ruling on Motion to Suppress, State of Iowa v. Struve, No.
FECR076297 (June 5, 2019)................................... 53a
APPENDIX F: Transcript of Suppression
Hearing, State of Iowa v. Struve, No.
FECR076297 (June 5, 2019)................................... 62a
APPENDIX G: Iowa Code § 321.276, Use of
Electronic Communication Device While
Driving .................................................................... 97a

VI
TABLE OF AUTHORITIES
Cases:

Page(s)

Brinegar v. United States,
338 U.S. 160 (1949) .............................................. 21
Brown v. Texas,
443 U.S. 47 (1979) ................................................ 26
Crigger v. McIntosh,
254 F. Supp. 3d 891 (E.D. Ky. 2017).............. 15, 19
Delaware v. Prouse,
440 U.S. 648 (1979) .............................................. 26
Espinoza v. Montana Dep’t of Revenue,
139 S. Ct. 2777 (2019) .......................................... 30
Kansas v. Glover,
140 S. Ct. 1183 (2020) .......................... 5, 17, 23, 25
Mitchell v. Wisconsin,
139 S. Ct. 915 (2019) ............................................ 29
People v. Corrales,
213 Cal. App. 4th 696 (2013)................................ 12
Reid v. Georgia,
448 U.S. 438 (1980) (per curiam) ......................... 26
Riley v. California,
573 U.S. 373 (2014) ................................................ 2
Safford Unified Sch. Dist. No. 1 v. Redding,
557 U.S. 364 (2009) .............................................. 21
State v. Christopher,
757 N.W.2d 247 (Iowa 2008) .................................. 8
State v. Dalton,
850 S.E.2d 560 (N.C. Ct. App. 2020).............. 12, 13

VII
Cases—Continued:

Page(s)

State v. Dunbar,
138 A.3d 455 (Conn. App. Ct. 2016)....................... 2
State v. Kreps,
650 N.W.2d 636 (Iowa 2002) ................................ 11
State v. Morsette,
924 N.W.2d 434 (N.D. 2019) ........ 16, 17, 18, 28, 29
State v. Nguyen Ngoc Pham,
433 P.3d 745 (Or. Ct. App. 2018) ......................... 19
State v. Rabanales-Ramos,
359 P.3d 250 (Or. Ct. App. 2015) ......................... 16
Sveen v. Melin,
138 S. Ct. 542 (2017) ............................................ 29
Terry v. Ohio,
392 U.S. 1 (1968) .......................................... 5, 8, 17
United States v. Sokolow,
490 U.S. 1 (1989) .................................................. 21
United States v. Arvizu,
534 U.S. 266 (2002) ........................................ 18, 22
United States v. Brignoni-Ponce,
422 U.S. 873 (1975) ........................................ 18, 21
United States v. Cortez,
449 U.S. 411 (1981) .................................... 5, 17, 21
United States v. Feliciana,
974 F.3d 519 (4th Cir. 2020) ................................ 23
United States v. Flores,
789 F.3d 645 (7th Cir. 2015)
(per curiam) ................................................ 4, 14, 26

VIII
Cases—Continued:

Page(s)

United States v. Mayo,
No. 2:13-CR-48, 2013 WL 5945802
(D. Vt. Nov. 6, 2013) ............................................. 12
United States v. Paniagua-Garcia, 813 F.3d
1013 (7th Cir. 2016)............ 3, 13, 14, 18, 24, 26, 29
United States v. Wilkins,
451 F. Supp. 3d 222 (D. Mass. 2020) ................... 15
Williams v. State,
778 S.E.2d 820 (Ga. Ct. App. 2015) ..................... 12
Statutes:
28 U.S.C. § 1257(a) ...................................................... 1
Ala. Code § 32-5A-350 (2019) ...................................... 2
Alaska Stat. § 28.35.161 (2020)................................... 2
Ark. Code Ann. § 27-51-1504 (2019) ........................... 2
Colo. Rev. Stat. § 42-4-239 (2019) ............................... 2
Conn. Gen. Stat. § 14-296aa (2019) ............................ 2
Fla. Stat. § 316.305 (2021)........................................... 2
Ind. Code § 9-21-8-59 ................................................. 14
Iowa Code § 321.276(1)(a) (2021) .... 2, 6, 15, 19, 24, 29
Iowa Code § 321.276(4)(a) (2021) ................................ 6
Iowa Code § 805.8A(14)(l) (2021) ................................ 6
Kan. Stat. Ann. § 8-15,111 (2020) ............................... 2
Ky. Rev. Stat. Ann. § 189.292 (2021) .......................... 2
La. Stat. Ann. § 32:300.5 (2020) .................................. 2
Mich. Comp. Laws § 257.602b (2021) ......................... 2

IX
Statutes—Continued:

Page(s)

Miss. Code. Ann. § 63-33-1 (2019) ............................... 2
N.C. Gen. Stat. § 20-137.4A (2020) ................. 2, 12, 29
N.D. Cent. Code § 39-08-23 (2021) .................. 2, 16, 29
N.M. Stat. Ann. § 66-7-374 (2020) .............................. 2
Nev. Rev. Stat. § 484B.165 (2020)............................... 2
Okla. Stat. tit. 47, § 11-901d (2020) ............................ 2
75 Pa. Cons. Stat. § 3316 (2019) ................................. 2
31 R.I. Gen. Laws § 31-22-30 (2020) ........................... 2
S.C. Code Ann. § 56-5-3890 (2020) .............................. 2
Tex. Transp. Code Ann. § 545.4251 (2021) ................. 2
Utah Code Ann. § 41-6a-1716 (2021) .......................... 2
V.I. Code Ann. tit. 20, § 509a (2019) ........................... 2
Wis. Stat. § 346.89 (2020) ............................................ 2
Wyo. Stat. Ann. § 31-5-237 (2020) .............................. 2
Other Authorities:
LaFave, Wayne R., 4 Search and Seizure
§ 9.5(b) (6th ed. 2020) ..................................... 21, 22
State Cellphone Use While Driving Laws,
Nat’l Conf. of State Legislatures (Oct. 5,
2020), https://perma.cc/S435-EMVM ..................... 3
U.S. Dep’t of Transp., Nat’l Highway Traffic
Safety Admin., Evaluating the
Enforceability of Texting Laws: Strategies
Tested in Connecticut and Massachusetts
(2017) .................................................................... 27

X
Constitutional Provisions:
Iowa Const. art. 1, § 8 .................................................. 8
U.S. Const. amend. IV ............................................. 1, 7

PETITION FOR A WRIT OF CERTIORARI
Steven Struve respectfully petitions for a writ of certiorari to review the judgment of the Supreme Court of
Iowa.
OPINION BELOW
The opinion of the Supreme Court of Iowa, App., infra, 4a-48a, is reported at 956 N.W.2d 90.
JURISDICTION
The Supreme Court of Iowa issued its opinion on
February 19, 2021. That Court denied a timely petition for rehearing on April 6, 2021. This Court’s orders
of March 19, 2020, and July 19, 2021, have the effect
of extending the deadline for any certiorari petition to
150 days after the date of the lower court’s judgment
or order denying a timely petition for rehearing, where
the lower court’s judgment or rehearing order issued
after March 19, 2020, and prior to July 19, 2021. In
this case, this Court’s orders extended the deadline for
a certiorari petition to September 3, 2021. The jurisdiction of this Court is invoked under 28 U.S.C.
§ 1257(a).
CONSTITUTIONAL PROVISIONS INVOLVED
The Fourth Amendment to the U.S. Constitution
provides: “The right of the people to be secure in their
persons, houses, papers, and effects, against unreasonable searches and seizures, shall not be violated, and
no Warrants shall issue, but upon probable cause, supported by Oath or affirmation, and particularly
describing the place to be searched, and the persons or
things to be seized.”

(1)

2
INTRODUCTION
Cellphones “are now such a pervasive and insistent
part of daily life that the proverbial visitor from Mars
might conclude they were an important feature of human anatomy.” Riley v. California, 573 U.S. 373, 385
(2014). Their ubiquity reflects the reality that such
devices are used for far more than placing telephone
calls; hundreds of millions of Americans use cellphones
for other purposes each day, from texting, browsing
the internet, or engaging with social media, to navigating, listening to music, or taking pictures. Some
Americans use their cellphones while driving.
Legislatures in more than twenty States and territories have responded to concerns about distracted
driving by enacting “texting-while-driving” laws that
prohibit some cellphone uses when driving, while expressly permitting many other uses.1 Iowa is one such
State. See Iowa Code § 321.276(2)(a) (2021).
See, e.g., Ala. Code § 32-5A-350 (2019); Alaska Stat. § 28.35.161
(2020); Ark. Code Ann. § 27-51-1504 (2019); Colo. Rev. Stat. § 424-239 (2019); Conn. Gen. Stat. § 14-296aa (2019) (as interpreted
by State v. Dunbar, 138 A.3d 455, 458 (Conn. App. Ct. 2016)); Fla.
Stat. § 316.305 (2021); Kan. Stat. Ann. § 8-15,111 (2020); Ky. Rev.
Stat. Ann. § 189.292 (2021); La. Stat. Ann. § 32:300.5 (2020);
Mich. Comp. Laws § 257.602b (2021); Miss. Code. Ann. § 63-33-1
(2019); Nev. Rev. Stat. § 484B.165 (2020); N.M. Stat. Ann. § 667-374 (2020); N.C. Gen. Stat. § 20-137.4A (2020); N.D. Cent. Code
§ 39-08-23 (2021); Okla. Stat. tit. 47, § 11-901d (2020); 75 Pa.
Cons. Stat. § 3316 (2019); 31 R.I. Gen. Laws § 31-22-30 (2020);
S.C. Code Ann. § 56-5-3890 (2020); Tex. Transp. Code Ann.
§ 545.4251 (2021); Utah Code Ann. § 41-6a-1716 (2021); Wis.
Stat. § 346.89 (2020); Wyo. Stat. Ann. § 31-5-237 (2020); V.I. Code
Ann. tit. 20, § 509a (2019). Other States prohibit all uses of a
cellphone while driving. See State Cellphone Use While Driving
1

3
Courts in these jurisdictions have struggled with
the question of when police officers may make a traffic
stop to investigate a potential violation of a textingwhile-driving law. In particular, federal and state
courts have divided about whether officers may reasonably suspect a texting-while-driving violation
based solely on observing a driver holding and manipulating a cellphone for a brief period of time—without
any indication of whether the use is lawful or prohibited.
In this case, a sharply divided Iowa Supreme Court
held that police reasonably suspected that Petitioner
Steven Struve was violating Iowa’s texting-while-driving statute, where an officer had observed him holding
and manipulating a cellphone for approximately ten
seconds while driving, albeit in a manner that did not
indicate how he was using the device. App., infra, at
23a-31a. In so holding, the Iowa Supreme Court split
from the North Dakota Supreme Court and the Seventh Circuit, id. at 19a-22a, which have reached the
opposite conclusion with respect to similar textingwhile-driving laws.
The Iowa Supreme Court’s decision is exceptionally
important and exceptionally wrong. Its ruling invites
“police to stop a substantial portion of the lawfully
driving public” in Iowa, United States v. PaniaguaGarcia, 813 F.3d 1013, 1014-1015 (7th Cir. 2016) (Posner, J.) (quoting United States v. Flores, 789 F.3d 645,
Laws, Nat’l Conf. of State Legislatures (Oct. 5, 2020),
https://perma.cc/S435-EMVM (select “State Charts”) (noting that
25 States, D.C., Puerto Rico, Guam and the U.S. Virgin Islands
have adopted “hands free” laws that ban all phone use while driving).

4
649 (7th Cir. 2015) (per curiam)), based on observed
conduct entirely consistent with lawful behavior. The
Iowa Supreme Court upheld the investigatory stop
while conceding that the conduct in question (brief manipulation of a cellphone) was fully consistent with
either proper or unlawful use. App., infra, at 28a-29a.
Rather than requiring affirmative indications of misconduct, the Court invoked “common sense” and some
generic statistics about nationwide cellphone use to
support a finding of reasonable suspicion. Id. at 24a26a. But whether a given driver is using his cellphone
illegally or innocently cannot be determined by “common sense.” In reality, the Court authorized stops
where police have no affirmative indication that a
driver is using his cellphone to send text messages, as
opposed to any of the myriad other purposes (such as
accessing a navigation application) that state law permits. Or, in the words of the lead dissent below:
“Under the majority’s holding today, the legislature
might as well have said the following: ‘Drivers: go
ahead and use your phones for the uses we’ve permitted you. Police: pull them over and interrogate them
if they do.’ ” See id. at 33a (McDermott, J., dissenting).
The question presented implicates the Fourth
Amendment right of millions of cellphone-owning
American drivers to go about their business without
being stopped or investigated absent a reasonable suspicion of unlawful activity. This Court’s review is
urgently warranted to ensure uniformity in this important area of the law, and to provide clarity both to
officers charged with enforcing texting-while-driving
laws and the scores of drivers who are subject to them.

5
STATEMENT
1. Legal Background
“[T]he Fourth Amendment permits an officer to initiate a brief investigative traffic stop when he has ‘a
particularized and objective basis for suspecting the
particular person stopped of criminal activity.’ ” Kansas v. Glover, 140 S. Ct. 1183, 1187 (2020) (quoting
United States v. Cortez, 449 U.S. 411, 417-418 (1981)).
This “particularized and objective basis” is known as
“reasonable suspicion.” Ibid.
In a line of cases beginning with Terry v. Ohio, 392
U.S. 1, 21-22 (1968), this Court has refined what “reasonable suspicion” demands. While that standard
does not require rigid 51% certainty that the suspect
is breaking the law, an officer must have more than a
“mere hunch” of criminality. Glover, 140 S. Ct. at 1187
(internal quotation marks omitted). Key to this inquiry is the requirement that an officer weigh the
likelihood that particular observed conduct is lawful or
unlawful. See Cortez, 449 U.S. at 418.
Over 20 States and territories have enacted laws
that prohibit some, but not all, uses of a cellphone
while driving. See supra note 1. For example, many
States—including Iowa—permit a driver to use a cellphone for navigation or to activate “touch-free” or
Bluetooth devices, but prohibit the use of a cellphone
to read or send written messages such as texts or
emails. In these jurisdictions, the simple act of holding
and manipulating a cellphone while driving could be
lawful or unlawful, depending on the particular use at
issue.

6
Section 321.276(2) of the Iowa Code provides that
“[a] person shall not use a hand-held electronic communication device to write, send, or view an electronic
message.” The term “ ‘[e]lectronic message’ includes
images visible on the screen of a hand-held electronic
communication device including a text-based message,
an instant message, a portion of electronic mail, an internet site, a social media application, or a game.”
Iowa Code § 321.276(1)(a) (2021). However, the Code
lists other cellphone uses that are expressly permitted
while driving, including (1) “using a global positioning
system or navigation system”; (2) “select[ing] or enter[ing] a telephone number or name in a hand-held
mobile telephone” for “the purpose of engaging in a
call”; and (3) “activat[ing], deactivat[ing], or initiat[ing] a function of a hand-held mobile telephone.”
Id. § 321.276(2)(a). As the Iowa Supreme Court has
explained, the legislature’s decision to implement a
narrower “texting-while-driving” ban—as opposed a
broader “hands free” law that prohibits all uses of a
cellphone while driving—represented a deliberate
choice to allow certain phone uses while driving. App.,
infra, at 20a, 30a-31a; accord id. at 36a (McDermott,
J., dissenting). A violation of Iowa’s statute is a misdemeanor carrying a $45 fine.
Iowa Code
§ 321.276(4)(a); § 805.8A(14)(l).
2. Factual Background
The facts of this case, as recounted by the Iowa Supreme Court, are “not seriously dispute[d].” App.,
infra, at 8a. On the evening of October 2, 2018, Petitioner was driving with a passenger in Clinton, Iowa
when two officers in a police cruiser observed him appear to use a cellphone. Id. at 6a. From their vantage

7
point in a car traveling alongside Petitioner’s vehicle,
they could see the glow of a cellphone and his “manipulati[on]” of the device. Ibid. The officers could not,
however, discern the nature of the finger motion—
whether “up-and-down” in a typing motion or “side-toside” in a swiping motion—but rather, could see only
that a finger was moving in front of the screen. Id. at
73a. After observing this manipulation of a cellphone
for approximately ten seconds, the officers initiated a
traffic stop. Id. at 6a.
An officer approached the vehicle and informed Petitioner that he had been stopped for texting while
driving. App., infra, at 6a. He responded that he had,
in fact, “been showing his passenger photos from his
phone’s gallery.” Ibid. Petitioner was never charged
with violating Iowa’s texting-while-driving law. Id. at
5a.
While one officer was speaking with Petitioner, the
second officer saw what he thought was drug paraphernalia in the backseat of the car. App., infra, at 6a.
A search led officers to locate a pipe of the type used to
smoke illegal narcotics and a baggie containing a substance later verified to be methamphetamine. Ibid.
Petitioner was arrested and charged with two felonies
related to the possession of a controlled substance. Id.
at 6a-7a.
Petitioner moved to suppress the evidence found in
the traffic stop. App., infra, at 7a. He argued that the
officers’ mere observation of cellphone use did not provide the requisite reasonable suspicion of criminality;
thus, any evidence gathered was the fruit of an illegal
seizure under both the Fourth Amendment to the U.S.
Constitution and Article 1, Section 8 of the Iowa

8
Constitution. Pet. D. Ct. Mot. to Suppress 1-2. In
seeking to justify the traffic stop, the State relied entirely on the officers’ perceived violation of the textingwhile-driving statute; the State did not point to any
other supposed violations. The district court denied
Mr. Struve’s motion to suppress, concluding that officers had reasonable suspicion under Iowa’s textingwhile-driving law necessary to satisfy the federal and
state Constitutions. App., infra, at 57a-60a.2
After reaching and then withdrawing a plea agreement,3 Petitioner proceeded to a bench trial on a single
possession charge. App., infra, at 7a. The district
court found him guilty and sentenced him to a prison
term of up to 20 years for the possession charge and a
resulting probation violation charge.
Petitioner appealed the suppression ruling to the
Iowa Supreme Court. Invoking Terry, 392 U.S. at 2122, and other federal Fourth Amendment cases, Petitioner argued that, because Iowa’s texting-whiledriving statute only prohibits certain uses of a cellphone while driving, the officers’ mere observation of
him holding and manipulating a cellphone in an indeterminate manner could not give rise to the reasonable
suspicion of criminality necessary to justify the stop.
Pet. Iowa S. Ct. Appellant’s Br. 27-34. Petitioner cited
decisions of the Seventh Circuit and North Dakota Supreme Court, which had sustained Fourth
The search-and-seizure protections under Iowa’s Constitution
are coextensive with those under the federal Constitution. See
State v. Christopher, 757 N.W.2d 247, 249 (Iowa 2008).
3 The parties withdrew the plea agreement so that Mr. Struve
could challenge the suppression ruling on appeal. See App., infra,
at 7a, 49a.
2

9
Amendment challenges to traffic stops under similar
laws and in similar circumstances. See ibid.
The Iowa Supreme Court upheld the stop in a 4-to3 decision. After acknowledging its disagreement with
the Seventh Circuit and North Dakota Supreme Court,
the majority held that observing a driver manipulating
a cellphone for ten seconds while driving provided the
reasonable suspicion necessary to justify the traffic
stop under the Fourth Amendment to the U.S. Constitution. App., infra, at 19a-23a, 31a. Adopting an
expansive interpretation of this Court’s decision in
Glover, the majority held that the officers’ “commonsense understanding about human behavior,”
bolstered by empirical evidence, justified the stop. Id.
at 24a-26a. Veering outside the record and considering data never mentioned or advanced by the state, the
majority cited statistics indicating that a large percentage of drivers nationwide admit to texting while
driving. Ibid. The majority held that the legislature’s
decision to carve out numerous permissible cellphone
uses did not undermine the “common sense” inference
that Mr. Struve had been using his cellphone unlawfully. Id. at 21a, 24a-26a.
Three Justices dissented. See App., infra, at 32a47a. In their view, the relevant inquiry was not how
often people text while driving in the abstract, but rather the likelihood that Petitioner’s observed cellphone
use was unlawful rather than lawful. As the dissent
explained, the State had provided—and the Court’s decision required—no evidence whatsoever to meet its
burden on the relative likelihood that people who use
their cellphone while driving are doing so unlawfully.
Id. at 33a, 40a (McDermott, J., dissenting). The

10
dissenters reasoned that the only evidence in the record particular to Petitioner—i.e., that police observed
him manipulating the cellphone in an indeterminate
manner for approximately ten seconds—did not give
rise to reasonable suspicion, because the evidence was
not probative of whether Mr. Struve was doing something unlawful (like texting), or lawful (like using a
navigation application). Id. at 41a-42a. The dissent
would have adopted the approach of the majority of
courts to have addressed the issue and held the stop
unlawful. Id. at 43a.
The Iowa Supreme Court denied a timely rehearing
petition. App., infra, at 3a.
REASONS FOR GRANTING THE PETITION
I. The Decision Below Deepens An Entrenched
Split Of Authority.
A. The Iowa Supreme Court Adopted
The Minority Position.
The Iowa Supreme Court held that Petitioner’s conduct created reasonable suspicion to initiate an
investigatory stop, despite the officers’ inability to ascertain whether he was engaging in lawful or unlawful
conduct under Iowa law. App., infra, at 23a-31a. The
Court’s holding that merely observing a driver using a
cellphone could constitute reasonable suspicion of a
texting-while-driving violation represents the minority view. See id. at 43a (McDermott, J., dissenting)
(“The majority concedes that today’s opinion aligns us
with the minority of courts * * * . ”).
Consulting this Court’s Fourth Amendment precedents and surveying relevant caselaw from other
jurisdictions, the Iowa Supreme Court concluded that

11
the conduct at issue supported a “commonsense inference” that Petitioner was “quite likely” engaging in
“impermissibl[e]” use of a cellphone. App., infra, at
26a (citing State v. Kreps, 650 N.W.2d 636, 642 (Iowa
2002)). In support of that conclusion, however, the
Court cited only generic “empirical data” showing that
“a large percentage of drivers admit to reading or writing texts while driving.” Id. at 24a; but cf. id. at 40a41a (McDermott, J., dissenting) (“survey data the majority cites” was “uncited by any party and absent from
the record”). The majority, moreover, did not require
(or consider) any data or other information that might
have shed light on the relative frequency at which
drivers using cellphones engage in permissible, as opposed to impermissible, use. Nor did the Court explain
how “common sense” supported a conclusion that Petitioner’s conduct here indicated unlawful, as compared
with innocent, activity. Although the majority nominally agreed that “not every driver seen using a cell
phone in any manner may be presumed to be violating
[state law],” its holding created that exact presumption in practical effect—upholding a stop based on an
officer’s mere observation of a driver “holding the
phone in front of his face” for 10 seconds “while manipulating it.” Id. at 28a-29a.
The dissenting Justices highlighted the breadth of
the majority’s rule, emphasizing that the officer’s assumption that Petitioner was using a cellphone
impermissibly was just “guesswork” that did not rely
on “actual articulable observations.” App., infra, at
40a (McDermott, J., dissenting). “[N]othing” in the
record of this case—including the facts on which the
majority relied, such as “holding up the alighted phone

12
at shoulder level for about ten seconds and swiping”—
indicated whether Mr. Struve’s conduct was “a forbidden or permitted use.” Id. at 41a; accord id. at 33a
(McDermott, J., dissenting) (“In this case, there’s only
one circumstance [supporting reasonable suspicion]:
police officers saw a driver for about ten seconds holding up and touching his phone. That’s it.”). As the
dissent explained, the majority’s decision grants police
a blank check to “pull over and interrogate any driver”
whenever they like, including for cellphone uses the
Iowa legislature expressly permitted. Id. at 33a.
In so holding, the Iowa Supreme Court aligned itself
with just a handful of other courts which have upheld
investigatory stops based on an officer’s observation of
a driver holding and manipulating a device, even
where state law permits a range of cellphone use. See
People v. Corrales, 213 Cal. App. 4th 696, 698-699
(2013); United States v. Mayo, No. 2:13-CR-48, 2013
WL 5945802, at *1, *3 (D. Vt. Nov. 6, 2013); Williams
v. State, 778 S.E.2d 820, 823 (Ga. Ct. App. 2015).
For example, State v. Dalton reached the same conclusion as the Iowa Supreme Court in Struve, on very
similar facts. 850 S.E.2d 560 (N.C. Ct. App. 2020). In
Dalton, officers stopped the defendant for holding a
cellphone “in the air toward the center of the car.” Id.
at 565. North Carolina law—like Iowa’s—prohibits
texting, but allows use of a cellphone for navigation or
to engage voice-operated technology. Id. at 564-565;
N.C. Gen. Stat. § 20-137.4A(b)(1)-(4). The Dalton
court conceded it was unlikely that an officer, observing “a person using a mobile device from afar,” could
“determine the specific use of the device in hand.” 850
S.E.2d at 566.
However, the court still found

13
reasonable suspicion. As in Struve, the Dalton court
effectively inverted the normal burden of proof, holding that
just because a person may be using a wireless
telephone while operating a motor vehicle for a
valid purpose does not, ipso facto, negate the
reasonable suspicion that the person is using
the device for a prohibited use. * * * [I]t is as
probable that a driver using a cell phone is doing so to send or receive prohibited text
messages as it is that the device is being used
for one of many lawful purposes, perhaps more
so.
Ibid.
B.

In Other Jurisdictions With Similar
Laws, Reasonable Suspicion Requires More Than Observing A
Driver Using A Cellphone.

In clear contrast to the Iowa Supreme Court, the
Seventh Circuit has held that, when state law allows
for some but not all uses of a cellphone while driving,
merely observing a driver holding and manipulating a
cellphone does not, without more, create reasonable
suspicion for an investigatory stop. See PaniaguaGarcia, 813 F.3d at 1014-1015 (Posner, J.).
In Paniagua-Garcia, an officer observed a driver
holding a cellphone in his right hand, bending his head
down towards it, and manipulating the device. Id. at
1014. Based on these facts alone, the officer suspected
that the driver had violated an Indiana law which prohibited sending, typing, or reading a text message
while driving, and initiated an investigatory stop.

14
Ibid.; see Ind. Code § 9-21-8-59 (subsequently
amended). A Seventh Circuit panel unanimously held
that the officer lacked reasonable suspicion because
the observed behavior was equally consistent with
other cellphone uses authorized by state law. Critically, the officer could not “explain[] what created the
appearance of texting as distinct from any one of the
multiple other—lawful—uses of a cellphone.” Id. at
1014-1015.
In so holding, the Seventh Circuit rejected the government’s claim that the “mere possibility of unlawful”
behavior is sufficient to “create a reasonable suspicion
of a criminal act,” where observed conduct is substantially consistent with innocent activity. 813 F.3d at
1014. The government’s position, the court held,
would prove too much, permitting, for example, a police officer to stop any driver drinking from an opaque
cup, given that coffee could conceivably be spiked with
alcohol. Id. at 1014-1015. “A suspicion so broad that
[it] would permit the police to stop a substantial portion of the lawfully driving public,” the court
concluded, “is not reasonable.” Ibid. (quoting Flores,
789 F.3d at 649).
For its part, the Struve majority was “not persuaded
by Paniagua-Garcia.”
App., infra, at 20a.4
The Struve majority attempted to distinguish Paniagua-Garcia
by observing that Indiana’s law had a slightly different scope
than Iowa’s. See App., infra, at 20a (noting that Iowa’s textingwhile-driving law bans playing games and browsing social media,
whereas the Indiana law at issue in Paniagua-Garcia did not).
But the fact that the Indiana law was marginally less restrictive
than Iowa’s does not change the central proposition that, under
both statutes, many uses of cellphones are expressly permitted,
4

15
Conversely, Justice McDermott’s dissent below agreed
with the Seventh Circuit’s rationale and result, and
expressed concern that the majority’s decision in
Struve would allow police to stop any driver drinking
from an opaque cup on “the possibility it might [contain] beer and not pop.” Id. at 47a (McDermott, J.,
dissenting).
Other courts align with the Seventh Circuit. The
District of Massachusetts, for instance, has expressly
endorsed Paniagua-Garcia, finding that “the reasoning of the Seventh Circuit” in that case “was sound.”
United States v. Wilkins, 451 F. Supp. 3d 222, 225,
228-229 (D. Mass. 2020). See also Crigger v. McIntosh,
254 F. Supp. 3d 891, 898-899 (E.D. Ky. 2017) (agreeing
that the mere observation of a driver “‘[u]sing’ or ‘doing
something’ with a cell phone” does not itself create a
“particularized and objective basis for suspecting that
a violation * * * has occurred”).5
such as, e.g., using a navigation application, selecting or entering
a telephone number to call, or activating or deactivating a function of a cellphone such as Bluetooth capability or other “pairing”
technologies. Moreover, various uses of a cellphone would be allowed under Iowa law despite not being included on the list of
expressly permitted activities, because they do not involve an
“[e]lectronic message” as defined by the statute, such as, e.g.,
checking the time or playing music. See Iowa Code § 321.276(1)(a)
(2021); see also App., infra, at 37a-38a (McDermott, J., dissenting) (discussing the many permitted uses of a cellphone while
driving under Iowa law). Thus, whatever differences in scope
may exist between Iowa and Indiana law are immaterial for purposes of the Fourth Amendment analysis. See also infra at 30
and note 7.
5 As the Iowa Supreme Court recognized, Oregon courts have also
held that, under that State’s probable-cause standard, the mere
observation of conduct consistent with entirely lawful behavior

16
The North Dakota Supreme Court agreed with the
Seventh Circuit in State v. Morsette, 924 N.W.2d 434
(N.D. 2019). As in Struve, the officer in Morsette
claimed to have reasonable suspicion to stop the defendant after observing him “manipulating his cell
phone” and “tapping the illuminated screen” while
driving. Id. at 440. North Dakota’s texting-while-driving statute, like Iowa’s, only prohibits drivers from
composing, reading, or sending an electronic message
while driving, and expressly permits other uses of a
cellphone, such as dialing a phone number. N.D. Cent.
Code § 39-08-23 (2021).
According to the North Dakota Supreme Court, an
officer’s observation of “finger-to-phone tapping” did
not bear on the relative likelihood that the driver’s behavior was unlawful or innocent, because “both
proscribed and permitted activities appear to encompass [such] actions.” Morsette, 924 N.W.2d at 438.
Unlike Struve, the Morsette court found this infirmity
rendered the stop unlawful, explaining that an officer
must be able to articulate specific facts that tend to
show the observed cellphone use is sufficiently likely
to be unlawful, to justify an investigatory stop. See id.
at 440 (“Although [the officer] testified to observing
the screen’s illumination and finger-to-phone tapping,
there is absent a link between those observations and

cannot justify initiating an investigatory stop, unless the officer
can also supply further specific facts that tend to show that the
observed conduct was sufficiently indicative of criminal activity.
See App., infra, at 22a-23a (citing State v. Rabanales-Ramos, 359
P.3d 250, 256 (Or. Ct. App. 2015)).

17
an objectively reasonable basis to suspect a violation.”).6
The contrast between the approaches taken by the
Paniagua-Garcia, Morsette, and Struve courts has
been broadly recognized. The Struve majority expressly rejected Morsette and Paniagua-Garcia. App.,
infra, at 20a (“[W]e decline to follow the lead of the
Morsette majority.”). Indeed, the Iowa Supreme Court
expressly embraced the Morsette dissent, reasoning
that its “position is more in line” with Iowa caselaw.
Id. at 22a. In contrast, the Struve dissent aligned itself
with the Paniagua-Garcia and Morsette majorities. Id.
at 43a-44a (McDermott, J., dissenting).
II. The Decision Below Is Wrong.
A. The Officers Failed To Observe Conduct That Indicates Impermissible
Cellphone Use.
To initiate an investigatory traffic stop in compliance with the Fourth Amendment, an officer must
have a reasonable suspicion of criminal activity. See
Glover, 140 S. Ct. at 1187. Reasonable suspicion requires “a particularized and objective basis for
suspecting the particular person stopped of criminal
activity.” Cortez, 449 U.S. at 417-418. A mere “hunch”
will not suffice. Terry, 392 U.S. at 27. The State bears
the burden to justify the stop. See id. at 21; United
Previewing the rationale later adopted by a majority of the Iowa
Supreme Court, Chief Justice VandeWalle argued in dissent in
Morsette that “the fact that a person may be using a * * * cell
phone * * * for a valid purpose does not negate the reasonable
suspicion that the person is using the cell phone for a prohibited
purpose.” 924 N.W.2d at 441 (VandeWalle, C.J., dissenting).
6

18
States v. Brignoni-Ponce, 422 U.S. 873, 884-886 (1975);
App., infra, at 33a, 40a (McDermott, J., dissenting).
When a texting-while-driving statute prohibits
some uses of cellphones while driving and permits
many others, the mere observation of a driver holding
and manipulating a cellphone does not, without more,
provide the necessary “particularized and objective basis” for suspecting illegal cellphone use. A court
cannot find reasonable suspicion where the officer involved “has never explained what created the
appearance of [impermissible use] as distinct from any
one of the multiple other—lawful—uses of a cellphone
by a driver.” Paniagua-Garcia, 813 F.3d at 1014.
While an officer “need not rule out the possibility of
innocent conduct” before initiating a stop, United
States v. Arvizu, 534 U.S. 266, 277 (2002), the officer’s
observations must nevertheless objectively indicate
unlawful as opposed to lawful activity. But as the Seventh Circuit and other courts correctly acknowledge,
merely holding and manipulating a cellphone is not
only entirely consistent with permissible activity, it
also provides no indication as to whether the use is
permissible or impermissible. See Paniagua-Garcia,
813 F.3d at 1014 (“Almost all the lawful uses we’ve
listed would create the same appearance—cellphone
held in hand, head of driver bending toward it * * *, a
finger or fingers touching an app on the cellphone’s
screen.”); see also Morsette, 924 N.W.2d at 438, 440
(noting that “[b]oth proscribed and permitted activities
appear to encompass actions that may require fingerto-phone tapping” such that “there is absent a link between [the observed finger-to-phone tapping] and an
objectively reasonable basis to suspect a violation”);

19
Crigger, 254 F. Supp. 3d at 898-899 (“[u]sing” or “doing
something” with a cellphone while driving “does not
constitute a particularized and objective basis for suspecting that a violation of the antitexting statute has
occurred”); App., infra, at 42a (McDermott, J., dissenting) (“[B]oth forbidden uses and permitted uses where
the driver swipes the screen appear identical to an observer who can’t make out the screen.”).
Because a driver can hold and manipulate a cellphone in the same way for many permissible and
impermissible uses, merely observing a driver manipulating a cellphone is not sufficient to support
reasonable suspicion for an investigatory stop. Instead, the officer must point to additional facts that
suggest impermissible rather than permissible use.
The Iowa Supreme Court reasoned that, if the facts
here “don’t allow officers to stop a driver to investigate,
it is hard to imagine what facts would.” App., infra, at
30a. But it is hardly difficult to imagine facts that
would create reasonable suspicion. For instance, an
officer might observe a driver immediately putting his
cellphone down after noticing a police vehicle, suggesting consciousness of guilt, indicating criminal activity.
See State v. Nguyen Ngoc Pham, 433 P.3d 745, 747 (Or.
Ct. App. 2018). Or, an officer might describe a driver
manipulating a cellphone in a recognizable or particularly incriminating way. Certain cellphone uses might
give rise to distinctive bases for suspecting prohibited
activity. For example, the Iowa statute explicitly bans
playing games or viewing videos.
Iowa Code
§ 321.276(1)(a). Using a phone for these purposes
would create a distinctive glow and the perception of
moving images, and—at least as to games—would

20
require a constant level of active interaction from the
user. An officer positioned a good distance from a
driver might nonetheless be able to reasonably suspect
that the driver was playing a game or watching a
video, as opposed to engaging in a permitted cellphone
use.
Such indications of illegality were entirely absent on
the record here. See App., infra, at 6a (describing Petitioner’s continued use of his cellphone as the officers
traveled alongside his vehicle and as they approached
his vehicle); see also id. at 71a-73a, 88a. Instead, the
officers stopped Petitioner after merely observing him
holding and manipulating his cellphone for approximately 10 seconds.
To bolster these minimal
observations, the Iowa Supreme Court emphasized incidental characteristics of Petitioner’s cellphone use
that did nothing to strengthen an inference of unlawful activity—for instance, the he held the cellphone “in
front of his face.” Id. at 5a. But, as the dissenters observed, “[t]here’s nothing about the height level at
which [Petitioner] held the phone that makes [his] use
somehow more indicative of any forbidden use (e.g.,
viewing a text message) than any permitted use (e.g.,
viewing driving directions).” Id. at 41a (McDermott,
J., dissenting).
The majority also found it probative that Petitioner
manipulated his cellphone “for at least ten seconds.”
See App., infra, at 5a. But again, the use of a cellphone
for ten seconds does not connote any illegal activity.
Other permitted uses of a cellphone under Iowa law—
such as typing directions into a navigation application
or scrolling through a list of contacts to select a person
to call—could also easily take ten seconds or longer.

21
Id. at 41a-42a (McDermott, J., dissenting) (“[T]here’s
nothing revealed about the type of use from holding
the phone for ten seconds * * * . One could easily spend
an equal amount of time scrolling through posts on a
social media app (forbidden) as scrolling through a list
of songs titles on a music app (permitted), or typing a
text (forbidden) as typing an address for driving directions (permitted).”).
B. The Iowa Supreme Court’s Flawed
Probabilistic Analysis Did Not Establish Reasonable Suspicion.
Implicitly acknowledging the shortcomings of the officers’ observations, the Iowa Supreme Court resorted
to a flawed probabilistic analysis in attempt to justify
its finding of reasonable suspicion.
Like probable cause, reasonable suspicion involves
an assessment of the probability that an individual is
engaged in criminal activity. Cortez, 449 U.S. at 418;
Brinegar v. United States, 338 U.S. 160, 175 (1949).
The requisite probability is not precisely quantified
under either standard. But reasonable suspicion requires at least a “moderate chance.” See Wayne R.
LaFave, 4 Search and Seizure § 9.5(b) (6th ed. 2020)
(quoting Safford Unified Sch. Dist. No. 1 v. Redding,
557 U.S. 364, 371 (2009)).
Under this Court’s reasonable suspicion precedents,
a court must assess whether the observed facts and
circumstances create a sufficient probability of criminal activity. See Brignoni-Ponce, 422 U.S. at 886-87;
cf. United States v. Sokolow, 490 U.S. 1, 9-10 (1989)
(relevant inquiry is “degree of suspicion that attaches
to particular types of noncriminal acts” (citation

22
omitted)). This requires the court to consider the likelihood that a suspect is engaged in unlawful activity,
rather than innocent activity. When “the observed
conduct is consistent with innocent activity” and
“there are no facts that would make the conduct observed by the officers anything but innocuous,” there
is no reasonable suspicion because “there does not
even exist a significant possibility (or even a moderate
chance) that the person observed is engaged in criminal conduct.”
LaFave, supra, § 9.5(b) (internal
quotation marks and citations omitted). While an officer “need not rule out the possibility of innocent
conduct,” Arvizu, 534 U.S. at 277, courts must nevertheless consider the likelihood of innocent conduct.
Reasonable suspicion is absent if there is a high
enough probability of innocent activity given the observed facts and circumstances.
The Iowa Supreme Court misunderstood and misapplied these principles when it asked only whether
the observed conduct was consistent with illegal activity, without considering how likely it was that the
observed conduct reflected innocent activity. App., infra, at 28a-29a. The Court conceded that “merely
observing a cell phone in a driver’s hand reflects innocuous behavior,” and therefore does not give rise to
reasonable suspicion. Ibid. But according to the
Court, a driver “holding the phone in front of his face
for a significant period of time while manipulating it”
did provide reasonable suspicion because those actions
are “consistent with improper use of his phone.” Id. at
29a.
The Court reached the wrong answer by asking the
wrong question. Given that holding and manipulating

23
a cellphone is entirely consistent with both criminal
activity and innocent activity—as the Iowa Supreme
Court itself recognized, App., infra, at 28a—the Court
erred by not assessing the likelihood that a driver
holding and manipulating his cellphone is doing so legally. This error is manifest in the Court’s two stated
bases for finding reasonable suspicion based on the officer’s ambiguous observations alone: “common sense”
and empirical evidence.
First, the Iowa Supreme Court relied on the conclusory and unsubstantiated “commonsense suspicion
that [Petitioner] was illegally using his cell phone.”
App., infra, at 24a. But this Court’s precedents show
that “common sense” can only support reasonable suspicion where it informs the likelihood of unlawful
activity given the observed facts. It is not enough to
note that the observed facts are consistent with criminal activity or that criminal activity is fairly common
among the population. For example, in this Court’s recent decision in Glover, common sense supported the
inferences that “the registered owner was likely the
primary driver of the vehicle” and that “the owner will
likely disregard [the order revoking his driver’s license] and continue to drive.” 140 S. Ct. at 1187
(emphasis added) (citation omitted).
But “common sense” does not sustain the conclusion
that a driver observed holding and manipulating his
cellphone is using it illegally. See United States v. Feliciana, 974 F.3d 519, 524 (4th Cir. 2020) (finding no
reasonable suspicion to stop a commercial vehicle on a
parkway open to commercial vehicles only by permit,
because “unlike the inference in Glover, the incidence
of permitted and unpermitted commercial vehicles on

24
the Parkway is not a matter of common sense”). Because the statute prohibits only some uses of
cellphones while driving but permits many others,
finding reasonable suspicion requires at least some
understanding of how frequently drivers who use cellphones while driving engage in permissible versus
impermissible cellphone uses—a question that the
Court below did not even think to ask, let alone attempt to answer. As Justice McDermott noted in his
dissent below, the majority’s repeated reliance on
“common sense”—a phrase invoked 19 times in the
majority’s opinion—amounted to little more than
“flimsy scaffolding” and “smoky incantation[].” See
App., infra, at 40a (McDermott, J., dissenting).
Moreover, “common sense” conclusions about the
probability of criminal activity cannot be based on “the
extent of conduct prohibited by the statute” alone.
App., infra, at 23a. Put differently, the likelihood that
a particular driver is unlawfully using their cellphone
does not depend on the number or extent of prohibited
uses under state law. Rather, courts must consider the
probability that a particular driver observed using a
cellphone is engaging in a particular use. For instance, Iowa law expressly allows use of cellphones for
navigation while driving. Iowa Code § 321.276(2)(a).
And because navigation inherently facilitates the task
of driving, it may well be more probable that a driver
using his cellphone is doing so for navigation, as opposed to engaging in any number of impermissible
uses. See Paniagua-Garcia, 813 F.3d at 1013-1014
(finding that “a driver is more likely to engage in one
or more of [the permissible uses] than in texting”). The
bare fact that a statute prohibits more cellphone uses

25
than it permits cannot, without more, establish reasonable suspicion.
Second, the Iowa Supreme Court claimed that the
“commonsense suspicion” that Petitioner’s cellphone
use was illegal was “supported by empirical data reflecting that a large percentage of drivers admit to
reading or writing texts while driving.” App., infra, at
24a-25a. Putting aside the Court’s questionable reliance on data “uncited by any party and absent from
the record,” id. at 40a-41a (McDermott, J., dissenting),
while empirical evidence can in some instances support a “common sense” suspicion, see Glover, 140 S. Ct.
at 1188, the Court here continued to ask (and answer)
the wrong questions. The percentage of the overall
(U.S.) driving population that ever engages in a particular cellphone use (here, texting) cannot by itself
reveal the likelihood that a particular driver observed
using his cellphone is doing so illegally. To support the
latter inference—the key task in the particularized
reasonable suspicion analysis—a court must consider
the percentage of drivers who engage in permissible
cellphone uses, as well as the frequency with which
drivers engage in permissible versus impermissible
cellphone uses.
This Court should clarify that the reasonable suspicion inquiry requires a court to consider whether
observed facts and circumstances indicate unlawful, as
opposed to innocent, activity. Otherwise, the decision
here invites courts to find reasonable suspicion where
observed conduct is consistent with illegal and legal
activity, based on a bare conclusion that some percentage of the general population engages in the illegal
activity at least some of the time. That same approach

26
would invite officers to stop a man for walking down
an alley, even though nothing shows that he is a drug
trafficker rather than an innocent pedestrian, merely
because some percentage of the population in that
neighborhood uses illegal drugs. But cf. Brown v.
Texas, 443 U.S. 47, 52-53 (1979) (finding no reasonable
suspicion).
C. Enforcement Concerns Do Not Justify
Weakening Core Fourth Amendment
Protections.
The Iowa Supreme Court sought to shore up its
flawed Fourth Amendment analysis with misplaced
policy concerns. In particular, the Court expressed
concern that requiring additional information before
officers initiate a traffic stop would “place[] too heavy
a burden on the police.” App., infra, at 22a (citation
omitted). That policy concern cannot justify the
Court’s flawed Fourth Amendment analysis.
As this Court has long explained, “standardless
and unconstrained discretion is the evil the Court has
discerned” when encountering traffic stops unsupported by reasonable suspicion. Delaware v. Prouse,
440 U.S. 648, 661 (1979). Precisely because so many
drivers use their cellphones while driving, allowing police to stop any motorist upon the mere observation of
cellphone use, absent additional facts tending to show
that a particular use is unlawful, invites arbitrary enforcement. “A suspicion so broad that [it] would
permit the police to stop a substantial portion of the
lawfully driving public . . . is not reasonable.”
Paniagua-Garcia, 813 F.3d at 1014-1015 (quoting Flores, 798 F.3d at 649); see Reid v. Georgia, 448 U.S. 438,
440-441 (1980) (per curiam); accord App., infra, at 32a

27
(Appel, J., dissenting) (under majority opinion, the
“potential of arbitrary and capricious enforcement is
front and center”).
The Iowa Supreme Court’s inchoate concerns about
effective enforcement do not justify relaxing core
Fourth Amendment principles and protections. The
Fourth Amendment requires that an investigatory
stop be based on particularized observations indicating impermissible cellphone use. In enforcing Fourth
Amendment protections, courts must focus on the likelihood that a given driver using his cellphone is doing
so illegally. The Iowa legislature made a deliberate
choice to prohibit some uses of cellphones while driving but to allow others. The necessary consequence of
that legislative choice is that officers do not have reasonable suspicion when a driver is merely observed
holding and manipulating a cellphone.
III. This Case Is An Ideal Vehicle To Address
This Important And Frequently Recurring
Question
1. The question presented here often arises in the
twenty-plus States and territories that have enacted
“texting-while-driving” bans that are materially similar to Iowa law. In these jurisdictions, investigatory
stops for suspected violations of texting-while-driving
statutes are routine. One study found that 35 percent
of all traffic violations reported by Massachusetts police officers involved such conduct. See U.S. Dep’t of
Transp., Nat’l Highway Traffic Safety Admin., Evaluating the Enforceability of Texting Laws: Strategies
Tested in Connecticut and Massachusetts 10 (2017).
Put differently, police reported, on average, roughly
six texting violations for every eight hours dedicated

28
to detecting traffic infractions, the highest reporting
rate of any traffic violation in the study. Id. at 11.
Given the prevalence of enforcement, it is no exaggeration to say that tens of millions of drivers nationwide
risk being stopped for suspected violations of textingwhile-driving statutes each year.
Yet among these twenty-plus jurisdictions, there
persists a sharp and enduring conflict of authority over
what conduct can create a reasonable suspicion that a
driver has violated a law that allows some, but not all,
uses of a cellphone while driving.
2. This case presents a clean and attractive vehicle
to address the question presented. As the Iowa Supreme Court noted, the facts here are “not seriously
dispute[d].” App., infra, at 8a. Petitioner was stopped
for the sole reason that officers observed him manipulating a cellphone. The Iowa Supreme Court held that
this conduct was sufficient to create reasonable suspicion. In so holding, it expressly departed from
decisions from other jurisdictions. And there is no
doubt that this disagreement was outcome-determinative: Had Petitioner been driving in North Dakota
instead of Iowa, the stop would have been unlawful.
See Morsette, 924 N.W.2d at 441.
3. Nor is there any doubt that the question dividing
the lower courts, despite arising in the context of particular state laws that ban texting while driving,
implicates a federal question. Indeed, the Iowa Supreme Court’s decision was expressly grounded in the
Fourth Amendment. See App., infra, at 7a, 19a, 31a;
see also supra note 2. Morsette and Paniagua-Garcia
were likewise decided on Fourth Amendment grounds.

29
Morsette, 924 N.W.2d at 440; Paniagua-Garcia, 813
F.3d. at 1014-1015.
4. The Iowa Supreme Court suggested in passing
that the authorities with which it disagreed were “distinguishable based on differences between the [state]
statutory prohibitions.” App., infra, at 23a. But there
is no dispute that more than 20 States and territories
have enacted laws that ban some but not all uses of a
cellphone while driving. Many of those statutes are
materially indistinguishable for Fourth Amendment
purposes. For example, the North Dakota statute at
issue in Morsette closely resembles the Iowa statute at
issue here: Both ban drivers from sending or receiving
an “electronic message”; then define the term “electronic message”; and then list certain uses that are
expressly permitted, including—in both cases—use of
a cellphone for navigation, to dial a phone number, and
to interface with a wireless communication device.
Compare N.D. Cent. Code § 39-08-23(1), (2)(a), with
Iowa Code § 321.276(1)(a), (2)(a).
When States have adopted similar laws or programs
designed to achieve the same goal but that use slightly
different language in achieving their ends, this Court
has not hesitated to grant certiorari to resolve a conflict of authority about whether those laws or
programs comply with the federal Constitution.7 The
See, e.g., Mitchell v. Wisconsin, 139 S. Ct. 915 (2019) (certiorari
granted to resolve conflict among courts in the 29 States which
permit warrantless blood draws from intoxicated-driving suspects concerning whether such searches comply with the Fourth
Amendment); Sveen v. Melin, 138 S. Ct. 542 (2017) (certiorari
granted to resolve conflict among courts in the 28 States with revocation-upon-divorce statutes concerning whether such statutes
7

30
fact that the relevant state statutes do not match verbatim is no obstacle to this Court’s review when, as
here, the statutes are closely similar and give rise to
the same federal question.
In any event, the conflict at issue here turns not on
any differences in state law, but rather on different
courts’ approaches to the underlying federal question:
whether the mere observation of a driver manipulating a cellphone, in a State that bans some but not all
uses of cellphones while driving, creates reasonable
suspicion for an investigatory stop. Notably, the Iowa
Supreme Court did not even attempt to distinguish
Morsette based on any purported differences between
Iowa and North Dakota law. Instead, the Iowa Supreme Court “decline[d] to follow” Morsette because, in
its view, the North Dakota Supreme Court had misapplied this Court’s Fourth Amendment precedents.
App., infra, at 20a-21a.
* * *
The decision below gives “the State the authority to
pull over and interrogate any driver seen glancing at a
phone despite the State having no idea whether the
driver is actually breaking the law.” App., infra, at 33a
(McDermott, J., dissenting). That holding breaks
sharply from decisions of other courts and stretches
past the breaking point this Court’s Fourth Amendment precedents. Review is urgently warranted.

violated the Contracts Clause); Espinoza v. Montana Dep’t of Revenue, 139 S. Ct. 2777 (2019) (certiorari granted to resolve conflict
of authority concerning whether similar tax-credit scholarship
programs in 18 states violated the First Amendment).

31
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted.
VIDHYA K. REDDY
ASSISTANT APPELLATE
DEFENDER
Fourth Floor
Lucas Building
321 E. 12th St.
Des Moines, IA 50319
(515) 281-8841
DANIEL R. ORTIZ
UNIVERSITY OF
VIRGINIA SCHOOL OF
LAW SUPREME COURT
LITIGATION CLINIC
580 Massie Road
Charlottesville, VA
22903
SEPTEMBER 2021

JEREMY C. MARWELL
Counsel of Record
JAMES T. DAWSON
VINSON & ELKINS LLP
2200 Pennsylvania Ave.,
NW, Suite 500 West
Washington, DC 20037
(202) 639-6507
jmarwell@velaw.com

APPENDIX

APPENDIX A
IN THE SUPREME COURT OF IOWA
No. 19-1614
Clinton County No. FECR076297
PROCEDENDO
STATE OF IOWA,
Plaintiff-Appellee,
v.
STEVEN EDWARD
STRUVE,
DefendantAppellant.

)
)
)
)
)
)
)
)
)
)

To the Iowa District Court for the County of
Clinton:
Whereas, there was an appeal from the district
court in the above-captioned case to the supreme
court. The appeal is now concluded.
Therefore, you are hereby directed to proceed in the
manner required by law and consistent with the
opinion of the court.
In witness whereof, I have hereunto set my hand
and affixed the seal of the supreme court.

1a

2a
State of Iowa Courts
Case Number
19-1614

Case Title
State v. Struve

So ordered
____________________
Christina A. Mayberry, Deputy Clerk
Electronically signed on 2021-04-06 11:55:59

3a
APPENDIX B
IN THE SUPREME COURT OF IOWA
No. 19-1614
Clinton County No. FECR076297
PETITION FOR REHEARING DENIED
STATE OF IOWA,
Plaintiff-Appellee,
v.
STEVEN EDWARD
STRUVE,
DefendantAppellant.

)
)
)
)
)
)
)
)
)
)

After consideration by this court, the petition for
rehearing in the above-captioned case is hereby
overruled and denied.
State of Iowa Courts
Case Number
19-1614

Case Title
State v. Struve

So ordered
____________________
Susan Larson Christensen, Chief Justice
Electronically signed on 2021-04-06 11:07:21

4a
APPENDIX C
IN THE SUPREME COURT OF IOWA
No. 19-1614
Submitted September 16, 2020–
Filed February 19, 2021
STATE OF IOWA,
Appellee,
vs.
STEVEN EDWARD STRUVE,
Appellant.
Appeal from the Iowa District Court for Clinton
County, Marlita A. Greve, Judge.
The defendant appeals denial of his motion to
suppress, arguing officers lacked reasonable
suspicion he was illegally using his cell phone to
support a traffic stop. AFFIRMED.
Oxley, J., delivered the opinion of the court, in
which Waterman, Mansfield, and McDonald, JJ.,
joined. McDermott, J., filed a dissenting opinion in
which Christensen, C.J., and Appel, J., joined. Appel,
J., filed a separate dissenting opinion.

5a
Martha J. Lucey, State Appellate Defender, and
Vidhya K. Reddy (argued), Assistant Appellate
Defendant, for appellant.
Thomas J. Miller, Attorney General, Kyle Hanson
(argued), Assistant Attorney General, Mike Wolf,
County Attorney, and James M. McHugh, Assistant
County Attorney, for appellee.
OXLEY, Justice.
Iowa is not a “hands-free” driving state. The Iowa
legislature recently expanded Iowa’s texting-whiledriving1 statute but stopped short of prohibiting all
hands-on use of a cell phone. Instead, Iowa Code
section 321.276 allows drivers to use cell phones for
some limited purposes while prohibiting most others.
We do not decide today what uses of a cell phone
are permitted and what uses are prohibited by section
321.276. The driver here was not charged with
violating the statute. He was, however, stopped when
officers believed he might be violating it. Thus, this
case requires us to determine when a police officer’s
observations of a driver using a cell phone move from
only a “hunch” the driver is using the cell phone in a
prohibited manner to providing the “specific and
articulable facts” required to permit an officer to stop
a driver and investigate whether the use violates
Iowa law. For the reasons explained below, we hold
that observations of a driver holding a phone in front
of his face and actively manipulating the screen for at
least ten seconds as involved in this case justified

We use this term as a colloquial shorthand for the statute with
the understanding that it addresses more than texting.
1

6a
stopping the driver to resolve any ambiguity about
whether the driver was violating section 321.276.
I.

Factual Background and Proceedings.

Around 9 p.m. on October 2, 2018, Clinton police
officers Curtis Blake and Roger Schumacher were
driving next to a vehicle when they observed the
driver holding a phone in front of his face. They could
see the glow of the phone from their car and that the
driver was “manipulating” the screen with his finger.
The officers’ dash camera recorded the incident. After
travelling alongside the car for approximately ten
seconds, during which time the driver continued
using the phone, the officers made a traffic stop.
After they pulled him over, the officers recognized
the driver of the car as Steven Struve. Struve
continued using the cell phone as the officers
approached his vehicle. Officer Schumacher spoke to
Struve, telling him he was not allowed to text while
driving, while Officer Blake spoke to Struve’s
passenger. Struve responded he thought it was only
illegal to text and drive in Illinois and explained he
had been showing his passenger photos from his
phone’s gallery. As Officer Schumacher spoke to
Struve, Officer Blake noticed what appeared to be a
drug pipe protruding from a bag in the car’s backseat.
Officer Blake notified Officer Schumacher about the
pipe, and they searched the vehicle.
The officers confirmed the pipe was the type used
to smoke methamphetamine and ultimately
discovered a baggie of over twenty grams of a
substance that appeared to be methamphetamine
under the center console. The officers arrested Struve

7a
and charged him with possession with intent to
distribute methamphetamine in excess of five grams,
a class “B” felony, and failure to affix a drug stamp.
Struve filed a motion to suppress the items discovered
during the traffic stop, arguing the officers lacked
reasonable suspicion Struve was committing a traffic
violation. Without reasonable suspicion, the traffic
stop would amount to an unconstitutional seizure,
and the fruits of that seizure would be suppressed.
The district court denied the motion, concluding the
officers had reasonable suspicion to stop Struve under
Iowa Code section 321.276.
After a plea agreement was reached, and then
withdrawn, the State withdrew the class “B” felony
charge and charged Struve with possession with
intent to deliver methamphetamine in violation of
Iowa Code section 124.401(1)(c)(6), a class “C” felony.
Struve proceeded to a bench trial on the minutes of
testimony, and the district court found him guilty.
Struve appeals the denial of his motion to suppress.
On appeal, Struve challenges only the initial stop; he
does not challenge the officers’ subsequent search of
the car after they observed the pipe in the back seat,
conducted under the plain-view exception to the
warrant requirement.
II. Standard of Review.
Struve claims the officer’s stop amounted to an
unreasonable seizure in violation of the Fourth
Amendment of the United States Constitution and
article I, section 8 of the Iowa Constitution. Given the
constitutional basis of his challenge, we review the
denial of his motion to suppress de novo. State v.
Tyler, 830 N.W.2d 288, 291 (Iowa 2013). “We

8a
independently evaluate the totality of the
circumstances found in the record . . . .” State v. Vance,
790 N.W.2d 775, 780 (Iowa 2010). We give deference
to the factual findings of the trial court but we are not
bound by them. Id.; Tyler, 830 N.W.2d at 291. The
parties do not seriously dispute the underlying facts;
rather, they disagree about whether the officers’
observations supported the stop.
III. Analysis.
A. Reasonable
Suspicion
to
Support
an
Investigatory Stop. Struve challenges the officers’ stop
as an unreasonable warrantless seizure. See State v.
Kreps, 650 N.W.2d 636, 641 (Iowa 2002). Our focus is
on reasonableness, as our jurisprudence—and both
constitutions— prohibit only “unreasonable” seizures.
See U.S. Const. amend. IV; Iowa Const. art. I, § 8.
These constitutional protections generally require a
warrant before an officer may seize a person, with
noted exceptions.
One exception allows an officer to briefly detain a
driver to investigate whether a traffic violation has
been, or is being, committed, but only if the officer can
establish reasonable suspicion for the stop. Kreps, 650
N.W.2d at 641. “The purpose of an investigatory stop
is to allow a police officer to confirm or dispel
suspicions of criminal activity through reasonable
questioning.” Id. Reasonable suspicion to support an
investigatory stop requires that the officer identify
“specific and articulable facts, which taken together
with rational inferences from those facts, to
reasonably believe criminal activity may have
occurred.” State v. Tague, 676 N.W.2d 197, 204 (Iowa

9a
2004). “Mere suspicion, curiosity, or hunch of criminal
activity is not enough.” Id.
Yet, police officers need not rule out all possibility
of innocent behavior before briefly detaining a driver.
Kreps, 650 N.W.2d at 641–42. Even if it is equally
probable that a driver is innocent, “police officers
must be permitted to act before their reasonable belief
is verified by escape or fruition of the harm it was
their duty to prevent.” Id. at 642 (quoting United
States v. Holland, 510 F.2d 453, 455 (9th Cir. 1975)).
Thus, “reasonable cause may exist to investigate
conduct which is subject to a legitimate explanation
and turns out to be wholly lawful.” Id. (quoting State
v. Richardson, 501 N.W.2d 495, 497 (Iowa 1993) (per
curiam)). We “judge[] the facts against an objective
standard: ‘would the facts available to the officer at
the moment of the seizure . . . “warrant a man of
reasonable caution in the belief” that the action taken
was appropriate?’ ” Id. at 641 (quoting State v.
Heminover, 619 N.W.2d 353, 357 (Iowa 2000) (en
banc), abrogated on other grounds by State v. Turner,
630 N.W.2d 601, 606 n.2 (Iowa 2001)).
The United States Supreme Court recently
addressed reasonable suspicion in Kansas v. Glover,
where it held an officer had reasonable suspicion to
stop a driver after the officer ran the vehicle’s plates
and learned the owner’s license was revoked. See 589
U.S. , , 140 S. Ct. 1183, 1188 (2020). That fact,
coupled with “the commonsense inference that [the
owner] was likely the driver of the vehicle . . . provided
more than reasonable suspicion to initiate the stop.”
Id.

10a
In distinguishing between a “mere hunch” that
does not create reasonable suspicion and articulable
and particularized facts that do, the Court recognized
that officers in the field must be allowed to rely on
“commonsense judgments and inferences about
human behavior” in determining whether the
particular facts known to the officer indicate criminal
activity sufficient to warrant investigation. Id. at ,
140 S. Ct at 1187–88 (quoting Illinois v. Wardlow, 528
U.S. 119, 125, 120 S. Ct. 673, 676 (2000)).
Justice Kagan concurred, agreeing that the officer
could reasonably infer that the driver of a vehicle is
likely the owner even if the owner’s license has been
revoked based on the additional fact that “revocations
in Kansas nearly always stem from serious or
repeated driving violations,” giving additional
support to the officer’s inference that motorists with
revoked licenses continue to drive. Id. at , 140 S. Ct
at 1194 (Kagan, J., concurring). The majority
recognized the Kansas licensing scheme reinforced
the reasonableness of the officer’s inference, but it
was not needed to support the stop; “common sense
suffice[d] to justify [the] inference.” Id. at , 140 S.
Ct at 1188–89.
We reached the same conclusion on similar facts
ten years earlier. See Vance, 790 N.W.2d at 781. An
officer had reasonable suspicion to initiate an
investigatory stop where the officer knew the
registered owner of the vehicle had a suspended
license and the officer was “unaware of any evidence
or circumstances indicating the registered owner
[was] not the driver of the vehicle.” Id. (addressing a
challenge under the Fourth Amendment).

11a
Recognizing that an inference that the owner of a
vehicle does most of the driving “may be fallible,” we
nonetheless concluded it was “sufficiently reasonable
to generate reasonable suspicion for an investigatory
stop to resolve the ambiguity as to whether criminal
activity is afoot.” Id. at 781–82. Forbidding officers
from relying on the commonsense inference that the
driver of a vehicle is usually its owner “would
seriously limit an officer’s ability to investigate
suspension violations because there are few, if any,
additional steps the officer can utilize to establish the
driver of a vehicle is its registered owner.” Id. at 782.
We rejected the argument that the officer should do
more to investigate whether the driver is the
suspended owner because it “place[d] too heavy a
burden on the police.” Id. (“It would be impossible for
an officer to verify that a driver of a vehicle fits the
description of the registered owner in heavy traffic, if
the vehicle has darkly tinted windows, or if the stop
occurs at night . . . .”). Allowing the officer to rely on
the inference without engaging in further
investigation
“adequately
protect[ed]
against
suspicionless investigatory stops because” if the
officer is or becomes aware of facts that invalidate the
assumption, such as evidence that the driver appears
to be a different age or gender than the registered
owner, “reasonable suspicion would, of course,
dissipate.” Id. (second quoting State v. Newer, 742
N.W.2d 923, 926 (Wis. Ct. App. 2007)). Our position is
consistent with that taken by the Supreme Court in
Glover. While an officer is not required to look for
corroborating facts, “the presence of additional facts

12a
might dispel reasonable suspicion.” Glover, 589 U.S.
at , 140 S. Ct. at 1191.
We also recognized that allowing an officer to rely
on commonsense inferences, “absent any evidence to
the contrary, ensures the safety of the roadways and
of law enforcement.” Vance, 790 N.W.2d at 782.
Requiring the officer to verify that the driver met the
registered owner’s description would endanger both
the officer and the traveling public if he had to
attempt to maneuver himself into a position to clearly
observe the driver. Id.
Last year, we applied Vance to a challenge under
the Iowa constitution and upheld a traffic stop after
officers observed a woman and two men leave a
residence, ran the vehicle’s license plate, and
discovered the registered owner was a woman with a
suspended license who “appeared to be” the
defendant. See State v. Haas, 930 N.W.2d 699, 702
(Iowa 2019) (per curiam). The fact that three people
got into the car did “not invalidate the officers’
assumption that [the registered owner] was driving
her own vehicle” where the officers did not see who
was driving. Id. As in Glover, we did not require
additional
corroboration
for
the
officer’s
commonsense inference that the owner of a vehicle is
likely the driver, even when the owner’s license is
suspended.
Relying on an officer’s common sense is not new to
our reasonable suspicion jurisprudence. An officer is
expected to make “commonsense judgments and
inferences about human behavior” when stopping a
motorist engaged in suspicious behavior. See Kreps,
650 N.W.2d at 640, 645 (quoting Wardlow, 528 U.S.

13a
at 124–25, 120 S. Ct. at 676) (concluding stop was
supported by reasonable suspicion despite no
indication of criminal activity based on defendant’s
actions of attempting to elude officer without
violating any traffic laws, coupled with passenger’s
jump from vehicle); see also State v. Lindsey, 881
N.W.2d 411, 426 (Iowa 2016) (concluding “school
officials were operating on a ‘common-sense
conclusio[n] about human behavior’ upon which
‘practical people’—including government officials—
are entitled to rely” in searching student athlete’s bag
with history of gun and drug possession after he
expressed unprompted and unusual concern about
the bag while lying injured on the football field)
(alteration in original) (quoting New Jersey v. T.L.O.,
469 U.S. 325, 346, 105 S. Ct. 733, 745 (1985)). Nor
does an officer’s common sense need to be based on
specific training or law enforcement experience.
Glover, 589 U.S. at
, 140 S Ct. at 1189 (“The
inference that the driver of a car is its registered
owner does not require any specialized training;
rather, it is a reasonable inference made by ordinary
people on a daily basis.”). As the Supreme Court
explained, “the ‘common sense’ understanding of
common sense, [is that it refers to] information that
is accessible to people generally, not just some
specialized subset of society.” Id. at , 140 S. Ct. at
1189–90. Thus, officers are expected to “draw[]
factual inferences based on the commonly held
knowledge they have acquired in their everyday
lives.” Id. at
, 140 S. Ct. at 1190.
The following propositions emerge from these
cases. First, an officer is expected to rely on their

14a
common sense and understanding of human behavior
in determining whether observed activity raises their
suspicions above a “mere hunch” of criminal activity.
The officer’s understanding comes not only from their
training and experience as an officer but also their
understanding from everyday life. Second, the
officer’s suspicion need not be infallible or even rise to
a fifty-fifty chance the individual is engaged in
criminal activity to be reasonable. Third, an officer is
not required to engage in additional investigation to
confirm their suspicions as long as the initial
suspicions are in fact reasonable. But if they become
aware of additional facts that make their suspicions
of illegal activity unreasonable, the reasonableness of
the initial suspicion dissipates and they cannot make
the stop.
With this framework, we consider the Iowa textingwhile-driving statute to put in context whether
Struve’s use of his cell phone as observed by the
officers gave rise to a reasonable suspicion that he
was using it in an illegal manner.
B. Iowa Code Section 321.276’s Prohibition on
Using Cell Phones While Driving.
Prior to July 1, 2017, section 321.276 prohibited a
driver from using a cell phone “to write, send, or read
a text message while driving a motor vehicle unless
the motor vehicle [was] at a complete stop off the
traveled portion of the roadway.” Iowa Code
§ 321.276(2) (2017). The prohibition extended to textbased messages, instant messages, and email
messages. Id. § 321.276(1)(c). The statute expressly
allowed other uses of a cell phone, including using the
cell phone’s global position system (GPS) or

15a
navigation system, selecting a name or entering a
number to make a voice call, and “activate[ing],
deactivate[ing], or initiate[ing] a function of a handheld mobile telephone.” Id. § 321.276(2)(a). It also
allowed use of cell phones in specific safety-related
circumstances. Id. § 321.276(2)(b). Section 321.276
was a secondary offense, which means an officer could
not stop a driver for violating it but could only cite a
driver if lawfully stopped for another traffic violation.
See id. § 321.276(5) (“A peace officer shall not stop or
detain a person solely for a suspected violation of this
section. This section is enforceable by a peace officer
only as a secondary action when the driver of a motor
vehicle has been stopped or detained for a suspected
violation of another provision of this chapter, a local
ordinance equivalent to a provision of this chapter, or
other law.”).
On April 17, 2017, the legislature passed Senate
File 234, titled “An Act relating to the use of electronic
communication devices to write, send, or view
electronic messages while driving as a primary
offense, and making penalties applicable.” 2017 Iowa
Acts ch. 75 (codified at Iowa Code § 321.276 (2018)).
While the legislature did not enact a “hands-free” law,
as some states have done, it did place additional
limitations on the use of cell phones while driving.
The Act broadened the statute’s coverage from “text
messages” to “electronic messages,” changed its
prohibition of “reading” such messages to “viewing”
them, redefined relevant terms, and made violations
a primary offense so that officers could stop drivers
for violating the revised statute. Id. §§ 1, 5.

16a
Iowa Code section 321.276 now declares, “A person
shall not use a hand-held electronic communication
device to write, send, or view an electronic message
while driving a motor vehicle unless the motor vehicle
is at a complete stop off the traveled portion of the
roadway.” Iowa Code § 321.276(2) (2018). An
“electronic message” expressly “includes images
visible on the screen of a hand-held electronic
communication device including a text-based
message, an instant message, a portion of electronic
mail, an internet site, a social media application, or a
game.” Id. § 321.276(1)(a). Additionally, the revisions
defined “[t]he terms ‘write’, ‘send’, and ‘view’, with
respect to an electronic message, [to] mean the
manual entry, transmission, or retrieval of an
electronic message, and include playing, browsing, or
accessing an electronic message.” Id. § 321.276(1)(d).
The statute continues to expressly allow use of a cell
phone for navigation; to conduct voice calls; to
activate, deactivate, or initiate other functions of a
cell
phone;
and in specific safety-related
circumstances. Id. § 321.276(2)(a), (b).
The revised statute now broadly prohibits not only
texting and emailing but also browsing internet sites,
accessing social media apps, and playing games while
driving. At oral argument, Struve conceded the
statute prohibits a motorist from using a cell phone
for any purpose other than the express exceptions
identified in section 321.276(2)(a) and subsection (b).
Struve also concedes that his actions of scrolling
through his phone’s photo gallery and showing
pictures to his passenger violated the statute. The

17a
State does not disagree with Struve’s interpretation
of the statute.
We need not decide the specific contours of the
revised statute for purposes of this appeal.2 It is
The dissent’s impassioned plea rests on the premise that the
legislative revisions did little to change the prohibited uses of a
cell phone. The dissent’s position is not advanced by either party;
indeed, it is at odds with the interpretation actually advanced by
both parties. “[O]ur system ‘is designed around the premise that
[parties represented by competent counsel] know what is best for
them, and are responsible for advancing the facts and argument
entitling them to relief.’ ” United States v. Sineneng-Smith, 590
U.S. , , 140 S. Ct. 1575, 1579 (2020) (alteration in original)
(quoting Castro v. United States, 540 U.S. 375, 386, 124 S. Ct.
786, 794 (2003) (Scalia, J., concurring in part and concurring in
judgment)). “ ‘[C]ourts are essentially passive instruments of
government.’ They ‘do not, or should not, sally forth each day
looking for wrongs to right. [They] wait for cases to come to
[them], and when [cases arise, courts] normally decide only
questions presented by the parties.’ ” Id. (alteration in original)
(citation omitted) (quoting United States v. Samuels, 808 F.2d
1298, 1301 (8th Cir. 1987) (Arnold, J., concurring in denial of
reh’g en banc)).
One danger of relying on a position not advocated by either
party is that the position remains untested by our adversarial
system and its logic may not be thoroughly scrutinized before
making its way into an opinion. According to the dissent’s
research, use of forty of the forty-four preloaded apps on an
iPhone is not prohibited by the dissent’s reading of section
321.276. From this, the dissent concludes that when a person is
using a phone, they are much more likely than not using it for a
permissible purpose. This conclusion is based on unsound
reasoning. The relevant question is not what percentage of apps
can be used without violating the statute. The relevant question
is what percentage of time people spend using apps prohibited
by the statute. The dissent’s analysis assumes all apps are used
equally. If a person has only two apps on a phone—a weather
app and a text messaging app—there would be a fifty-fifty
2

18a
sufficient for our purposes to recognize that the
legislature greatly expanded the conduct prohibited
by section 321.276. Our resolution of Struve’s appeal
turns on whether Officer Blake and Officer Schroeder
observed activity that justified stopping Struve for
the purpose of investigating whether he was engaged
in illegal activity.
chance the person is using the weather app or the text messaging
app. Of course we know this is not true. This example simply
demonstrates the dissent’s failure to account for a critical
variable in its own analysis.
Relying on positions not advocated by the parties also results
in the loss of vetting through consideration of contrary
arguments. The dissent surmises that a driver may permissibly
use apps on an iPhone to order food, trade stocks, shop for books,
and check in for a flight, among others. An argument to the
contrary could be made (and might have been made by the State
had it been given the opportunity). The dissent points out that
the statute provides a nonexhaustive list of examples of what
constitutes an “electronic message.” The question remains
whether an app that allows the cell phone user to communicate
with the app’s provider is sufficiently similar to communicating
through an internet site (expressly listed), such that using the
app would also be prohibited. A cell phone user who downloads
and uses Amazon’s app to order books communicates with
Amazon in virtually the same way as if they used their phone’s
web browser to access Amazon’s website. We make no judgment
as to whether browsing or accessing an app instead of an
internet site while driving violates section 321.276. We leave
that question for another day where the issue is more directly
presented through the adversarial process. For this case, it is
enough to recognize that the legislature greatly expanded the
statute’s coverage from its prior limited prohibitions. Cf. State v.
Coleman, 907 N.W.2d 124, 135–36 (Iowa 2018) (“[A]lthough we
adhere to the rule of lenity in criminal cases, criminal statutes
still ‘must be construed reasonably and in such a way as to not
defeat their plain purpose.’ ” (quoting State v. Hagen, 840
N.W.2d 140, 146 (Iowa 2013))).

19a
Before determining whether the officers had
reasonable suspicion for the stop, we review cases
addressing texting-while-driving statutes from other
jurisdictions.
C. How Other Jurisdictions Have Handled Traffic
Stops for Cell Phone Use While Driving. A handful of
courts have addressed Fourth Amendment challenges
(or analogous state constitutional challenges) to
traffic stops for cell phone use under other states’
laws. The different language used in various state
statutes limits our ability to apply other cases to
Iowa’s statute, but a review of their reasoning
supports our ultimate conclusion that the officers had
reasonable suspicion to stop Struve.
In United States v. Paniagua-Garcia, an officer
observed a driver holding a cell phone in his right
hand with his head bent toward the phone, who
“appeared to be texting.” 813 F.3d 1013, 1013–14 (7th
Cir. 2016). The United States Court of Appeals for the
Seventh Circuit focused on the quantity of prohibited
and allowed uses to conclude the officer’s suspicion
the driver was violating Indiana law was not
reasonable. Id. at 1014–15. It turned out the driver
was searching for music on his phone, not texting. Id.
at 1014. Where Indiana’s texting-and-driving law
prohibited only texting and emailing but allowed
“[a]ll other uses,” including “making and receiving
phone calls, inputting addresses, reading driving
directions and maps with GPS applications, reading
news and weather programs, retrieving and playing
music or audio books, surfing the Internet, playing
video games—even watching movies or television,”
the court concluded it was not reasonable to stop

20a
someone seen using a cell phone without evidence
that the officers saw texting as opposed to activity
that is “consistent with any one of a number of lawful
uses of cellphones.” Id. The officer never “explained
what created the appearance of texting as distinct
from any one of the multiple other—lawful—uses of a
cellphone by a driver.” Id.
We are not persuaded by Paniagua-Garcia, which
considered a statute prohibiting only texting, much
like the prior Iowa statute. When the Iowa legislature
changed section 321.276 from a secondary offense to
a primary offense, it also greatly expanded the scope
of its coverage to prohibit not only writing, sending,
or reading text or email messages but also playing
games, browsing social media apps, and accessing
internet sites. Thus, the revised Iowa statute
prohibits much of the activity allowed under the
Indiana statute that supported the Seventh Circuit’s
conclusion.
In State v. Morsette, the North Dakota Supreme
Court held reasonable suspicion did not support a
traffic stop where a police officer “observed a driver in
the adjacent lane manipulating his touchscreen cell
phone for approximately two seconds” while stopped
at a red light. 924 N.W.2d 434, 436 (N.D. 2019). While
the North Dakota statute prohibits more conduct
than did the Indiana statute at issue in PaniaguaGarcia, we decline to follow the lead of the Morsette
majority because it is contrary to the Supreme Court’s
discussion of reasonable suspicion in Glover. Morsette
focused on the lack of evidence about the stopping
officer’s “past success rate at identifying violations” of
the texting-while-driving statute or “any unique

21a
training he received” that would enable him to
identify allowed use compared to prohibited use while
travelling next to a moving vehicle. 924 N.W.2d at
440. But under Glover, reasonable suspicion includes
common sense derived from everyday life, not only
from specialized training or success rates. See Glover,
589 U.S. at , 140 S. Ct. at 1189–90 (“Nothing in our
Fourth Amendment precedent supports the notion
that, in determining whether reasonable suspicion
exists, an officer can draw inferences based on
knowledge gained only through law enforcement
training and experience. We have repeatedly
recognized the opposite.”). As the Supreme Court
explained in Glover, requiring an officer to identify
specific training to support his suspicions “would also
impose on police the burden of pointing to specific
training materials or field experiences justifying
reasonable suspicion for the myriad infractions in
municipal criminal codes.” Id. at
, 140 S. Ct. at
1190.
The chief justice disagreed with the majority in
Morsette. “[T]hat a person may be using a wireless
communications device . . . for a valid purpose does
not negate the reasonable suspicion that the person is
using the cell phone for a prohibited purpose.”
Morsette, 924 N.W.2d at 441 (VandeWalle, C.J.,
dissenting). Considering the extent of conduct
prohibited by the North Dakota statute, the chief
justice concluded “it is as probable that the cell phone
is used to send or receive prohibited electronic
messages as it is that the device is being used for one
of the lawful purposes, perhaps more so.” Id.

22a
Further, that the statute may be difficult to apply
does not preclude officers from stopping drivers when
the officer has articulable and objective facts to
support the stop. See id. (“It seems to me that the
majority opinion substantially reduces, if not
eliminates, the effective enforcement of the statute.”).
The Morsette dissent’s position is more in line with the
concern we identified in Vance that requiring an
officer to further investigate whether the driver is the
suspended owner before making a stop “place[d] too
heavy a burden on the police.” Vance, 790 N.W.2d at
782.
Oregon courts have considered the issue in two
cases, finding probable cause3 in one but not the
other. In the first case, the officer observed “ ‘light
coming up to [defendant’s] face’ that he believed was
coming ‘from a device that was in her hand that she
was looking down at’ . . . for approximately 10
seconds.” State v. Rabanales-Ramos, 359 P.3d 250,
251–52 (Or. Ct. App. 2015) (alteration in original).
“The trooper did not see defendant put the device up
to her ear, move her lips as if she were talking, or
push any buttons.” Id. Interpreting the statutory text
to prohibit only use of a cell phone for communication,
but not any other uses, the court concluded the
trooper’s “belief that defendant had ‘use[d]’ that
device was not objectively reasonable under the
circumstances.” Id. at 256 (alteration in original).
Oregon jurisprudence requires the higher probable cause
standard to justify a traffic stop. State v. Rabanales-Ramos, 359
P.3d 250, 253 (Or. Ct. App. 2015). This in itself makes the
Oregon cases of limited value to our reasonable suspicion
analysis.
3

23a
The Oregon Court of Appeals reached the opposite
conclusion in State v. Nguyen Ngoc Pham, where
police officers observed the defendant holding a cell
phone in his hand, “saw the screen was lit up . . . and
. . . could see [defendant] pushing something on the
screen.” 433 P.3d 745, 746 (Or. Ct. App. 2018)
(alteration in original). The officer could not identify
exactly what the driver was doing. Id. When the
driver looked up and saw a police car next to him, he
put his cell phone down. Id. The court concluded
probable cause existed from the officer’s observation
of the defendant pushing on the screen and promptly
lowering his phone when he saw the officer,
distinguishing Rabanales-Ramos. Id. at 747. The
officer’s observation of the driver manipulating the
phone was the primary difference between Nguyen
Ngoc Pham and Rabanales-Ramos.
While these cases are distinguishable based on
differences between the statutory prohibitions, it
seems that the extent of conduct prohibited by the
statute as well as the actual conduct observed by the
officers are both critical to the reasonable suspicion
analysis.
D. Did the Officers Have Reasonable Suspicion
Struve Was Violating Iowa Code Section 321.276 to
Support an Investigatory Stop? We turn then to the
facts articulated by the officers to support the stop.
Officer Blake was in the passenger seat of the patrol
vehicle, and as the officers moved alongside the
driver’s side of Struve’s car, Officer Blake observed
the driver holding a cell phone in front of his face for
at least ten seconds, which lit up the interior of the
dark car, and saw the driver “manipulating the screen

24a
with his thumb as he was driving.” The patrol car was
beside and just behind the driver, which allowed
Officer Blake “to view [Struve’s] hands and the fact
that his hand was up in front of his face with the cell
phone and that he was manipulating the screen.”
Officer Blake testified the phone was “[u]p in front of
the steering wheel, pretty much directly in front of
[Struve’s] face.” The screen was “very bright,” which
allowed Officer Blake “to see [Struve’s] thumb moving
back and forth in front of it.” Officer Schumacher, who
was driving the patrol vehicle, likewise observed
Struve holding the lit phone in front of his face and
manipulating it in his hand. The thirty-second
dashcam video introduced into evidence confirms that
the cell phone was lit up during the entire
approximate ten-second period during which the
officers followed Struve and assessed whether he
appeared to be improperly using his cell phone. The
officers suspected Struve was texting and stopped
him to investigate.
The officers’ commonsense suspicion that Struve
was illegally using his cell phone is supported by
empirical data reflecting that a large percentage of
drivers admit to reading or writing texts while
driving, even while recognizing such activity as
dangerous. See Glover, 589 U.S. at , 140 S. Ct. at
1188 (citing statistics from the National Cooperative
Highway Research Program and the National
Highway and Traffic Safety Administration and
concluding “[e]mpirical studies demonstrate what
common
experience
readily
reveals”).
AAA
Foundation for Traffic Safety, which conducts an
annual survey concerning distracted driving,

25a
conducted its 2018 survey between August 21 and
September 11, 2018, around the time of Struve’s
traffic stop. AAA Found. for Traffic Safety, 2018
Traffic Safety Culture Index 7 (2019) [hereinafter
AAA
2018
Traffic
Safety
Index],
https://aaafoundation.org/wpcontent/uploads/2019/06/2018-TSCI-FINAL061819_updated.pdf. While 96% of respondents
considered reading or typing texts or emails while
driving to be very or extremely dangerous, 41% of
respondents admitted reading messages while
driving and 32% admitted typing such messages
within the last thirty days. Id. at 5. Of respondents
aged 19–39, over 50% reported reading or writing a
text while driving in the prior thirty days. Id. at 20.4
The AAA Foundation observed the “survey again
highlights the discordance between drivers’ attitudes
and their behaviors,” recognizing similar responses in
prior years’ surveys. Id. at 4.5
Glover reinforces the importance of considering the
commonsense understanding about human behavior
Respondents aged 25–39 were the worst offenders, with 60%
admittedly reading a text and 54% typing a text while driving,
even though 96% of that age group viewed such activity as very
or extremely dangerous. AAA 2018 Traffic Safety Index at 18,
20.
5 An article cited by the dissent provides further support for the
general knowledge that a significant number of drivers engage
in prohibited conduct, noting that “a [2007] study of adults from
New York, New Jersey, and Connecticut revealed that eighty-six
percent of drivers ignore cell phone bans in their respective
states.” Alan Lazerow, Near Impossible to Enforce at Best,
Unconstitutional at Worst: The Consequences of Maryland’s Text
Messaging Ban on Drivers, 17 Rich. J.L. & Tech. 1, 31 n.105
(2010).
4

26a
and use of cell phones in assessing whether the
officers had an objectively reasonable suspicion that
Struve was engaged in a prohibited use of his cell
phone. That commonsense observation, supported by
empirical evidence that a significant number of
drivers continue to read and write text messages
while driving despite recognizing the serious dangers
of doing so, also distinguishes the officers’
observations of Struve’s use of his phone from the
hypothetical relied on to support the court’s position
in Paniagua-Garcia, 813 F.3d at 1015 (“Suppose the
officer had observed Paniagua drinking from a cup
that appeared to contain just coffee. Were the coffee
spiked with liquor in however small a quantity,
Paniagua would be violating a state law forbidding
drinking an alcoholic beverage while driving, and that
possibility, however remote, would on the reasoning
advanced by the government and adopted by the
district judge justify stopping the driver.”). That there
is only a remote possibility that a driver has Kahlua
in his coffee does not negate the entirely different
inferences to be drawn from a driver using his cell
phone. The likelihood that a driver—observed holding
a cell phone in front of his face for a prolonged period
while manipulating the screen—is using the phone
for a prohibited rather than a permitted use is more
than a remote possibility. The empirical evidence
supports the commonsense inference that it is quite
likely a driver is impermissibly using his phone—for
some age groups of drivers even more likely than not.
See Kreps, 650 N.W.2d at 642 (“An officer may make
an investigatory stop with ‘considerably less than
proof of wrongdoing by a preponderance of the

27a
evidence.’ “ (quoting Richardson, 501 N.W.2d at 496–
97)).
Our holding does not mean that an officer may stop
any driver seen using a cell phone. For this point, we
look to our cases involving observations that support
stopping a driver on suspicion of impaired or drunk
driving. In Tague, we held that observing a driver’s
“tires barely cross[ing] the edge line once for a very
brief period” did not provide reasonable suspicion that
the driver was impaired. 676 N.W.2d at 205. By
contrast, observations of weaving within the driver’s
lane “several times,” id. at 204 (discussing State v.
Tompkins, 507 N.W.2d 736, 740 (Iowa Ct. App. 1993)
(en banc)), or erratic speed changes and “veering . . .
at sharp angles,” id. at 204–05 (discussing State v.
Otto, 566 N.W.2d 509, 510–11 (Iowa 1997) (per
curiam)), provided reasonable suspicion that the
driver may have been intoxicated. We reasoned that
“any vehicle could be subject to an isolated incident of
briefly crossing an edge line of a divided roadway
without giving rise to the suspicion of intoxication.”
Id. at 205. We agreed with the district court that “it
happens all too often” and described a number of
innocuous activities that could have caused the
isolated incident. Id.
Yet the cases where we found reasonable suspicion
of impaired driving to support a stop did not involve
activity consistent only with illegal conduct. Weaving
within one’s own lane and changing speeds without
exceeding the speed limit do not violate any statute,
but they do provide evidence of impairment. The
difference between Tague’s isolated and limited
action and the repeated and more dramatic actions in

28a
Tompkins and Otto did not turn on whether the
observed conduct was consistent only with illegal
conduct to the exclusion of legal conduct, but whether
it provided an objective indication of illegality.
Applying that reasoning here, not every driver seen
using a cell phone in any manner may be presumed to
be violating section 321.276. Iowa drivers legally use
their cell phones every day. But at the same time,
reasonable suspicion does not require an officer to
rule out all innocent explanations. “The need to
resolve ambiguous factual situations—ambiguous
because the observed conduct could be either lawful
or unlawful—is a core reason the Constitution
permits investigative stops . . . .” United States v.
Miranda-Sotolongo, 827 F.3d 663, 669 (7th Cir. 2016)
(citing Wardlow, 528 U.S. at 125, 120 S. Ct. at 677).
“Accordingly, reasonable suspicion may support an
investigatory stop that ultimately reveals wholly
lawful conduct.” Vance, 790 N.W.2d at 780.
In the impaired driving context, observing a vehicle
barely cross an edge line once does not rise to a
reasonable suspicion of wrongdoing because a single
incident could be caused by a number of innocuous
reasons. Even though repeated swerving or crossing
the lane lines is not itself illegal and could be
explained by the same innocuous behavior as a single
lane crossing, it still raises reasonable suspicion
based on the commonsense understanding that such
repeated actions can reflect impaired driving.
Likewise, merely observing a cell phone in a
driver’s hand reflects innocuous behavior. But
additional observations can raise an officer’s
suspicions sufficient to justify an investigatory stop,

29a
even if the observations do not necessarily reveal
prohibited as opposed to allowed activity. Here, the
officers observed more than mere use of a cell phone.
The officers followed alongside Struve and observed
him holding the phone in front of his face for a
significant period of time while manipulating it,
actions consistent with improper use of his phone.
That these actions may be consistent with proper use
of a phone does not make the stop per se
unreasonable. Our caselaw makes clear the officers
were not required to rule out permitted activity before
making an investigatory stop. Indeed, a “tie” in the
reasonable inferences to be drawn from the officer’s
observations lands the evidence on the reasonable
side of the equation since “[t]he reasonable suspicion
inquiry ‘falls considerably short’ of 51% accuracy.”
Glover, 589 U.S. at
, 140 S. Ct. at 1188 (quoting
United States v. Arvizu, 534 U.S. 266, 274, 122 S. Ct.
744, 751 (2002)) (explaining that “[t]o be reasonable
is not to be perfect” (alternation in original) (quoting
Heien v. North Carolina, 574 U.S. 54, 60, 135 S. Ct.
530, 536 (2014)).
Struve’s position that the officers were required to
articulate observations consistent with illegal conduct
to the exclusion of legal conduct clouds the distinction
between a probable cause basis for a stop and a
reasonable suspicion basis for a stop. See Glover, 589
U.S. at , 140 S. Ct. at 1188 (explaining information
needed to establish reasonable suspicion differs “in
quantity [and] content than that required to establish
probable cause” (quoting Alabama v. White, 496 U.S.
325, 330, 110 S. Ct. 2412, 2416 (1990))). If an officer
could actually see that the driver was viewing a social

30a
media app as opposed to a GPS screen, the officer
would likely have probable cause to stop the vehicle
based on the officer’s observation of a traffic
violation.6 See Tyler, 830 N.W.2d at 293 (holding that
an officer who observes a traffic violation, however
minor, has probable cause to stop the motorist). The
whole point of allowing officers to briefly detain
motorists based on reasonable suspicion is to allow
the officer to clear up any ambiguity about whether
the observed behavior was illegal or not. See Vance,
790 N.W.2d at 780 (recognizing purpose of “an
investigatory stop is to resolve the ambiguity as to
whether criminal activity is afoot” (quoting
Richardson, 501 N.W.2d at 497)).
We conclude that the officers’ observations of
Struve holding the lit cell phone in front of his face for
at least ten seconds while manipulating the screen
allowed them to briefly stop Struve and clear up the
ambiguity created by his actions, particularly in light
of the expanded coverage of activity prohibited by
section 321.276. If these facts don’t allow officers to
stop a driver to investigate, it is hard to imagine what
facts would. The legislature expanded the scope of
section 321.276 and made it a primary offense to
address the significant public safety issues associated
with distracted driving caused by cell phones. To hold
The dissent likewise confuses probable cause and reasonable
suspicion when it suggests an officer could only stop a driver if
he could “make out the contents of the phone’s screen” and “come
to a conclusion about the phone function employed.” If the officer
could see a text message or Facebook page visible on the screen,
the officer would have probable cause to stop the driver.
Reasonable suspicion requires a lesser showing. See Wardlow,
528 U.S. at 123, 120 S. Ct. at 675–76.
6

31a
otherwise on the facts of this case would run the risk
of “substantially reduc[ing], if not eliminat[ing], the
effective enforcement of” section 321.276. Morsette,
924 N.W.2d at 441 (VandeWalle, C.J., dissenting); see
also Vance, 790 N.W.2d at 782 (“[T]o forbid the police
from relying on such an inference to form reasonable
suspicion for an investigatory stop would seriously
limit an officer’s ability to investigate suspension
violations because there are few, if any, additional
steps the officer can utilize to establish the driver of a
vehicle is its registered owner.”).
Simply stated, the Fourth Amendment and
article I, section 8 allow investigatory stops based on
reasonable suspicion. This means there will be some
circumstances when the individual will turn out not
to have engaged in the unlawful conduct. This is true
whether the stop involves investigating wrongful use
of a cell phone or some other suspected misconduct as
in Glover, Vance, and Haas. The circumstances and
inferences involved here are simply indistinguishable
from the circumstances and inferences involved in
those cases.
IV. Conclusion.
Struve’s constitutional rights were not violated,
and we affirm the denial of his motion to suppress.
AFFIRMED.
Waterman, Mansfield, and McDonald, JJ., join this
opinion. McDermott, J., files a dissenting opinion in
which Christensen, C.J., and Appel, J., join. Appel, J.
files a separate dissenting opinion.

32a
APPEL, Justice (dissenting).
I join in Justice McDermott’s dissent. I write to
emphasize that one of the central purposes of
constitutional provisions related to search and
seizure is to prevent arbitrary and capricious actions
by law enforcement authorities. See Anthony G.
Amsterdam, Perspectives on the Fourth Amendment,
58 Minn. L. Rev. 349, 417 (1974). When law
enforcement has broad sweeping powers that permit
widespread searches or seizures, the potential of
arbitrary and capricious enforcement is front and
center. A warrantless search and seizure with
substantial risks of arbitrary and capricious
enforcement is, at a minimum, constitutionally
suspect. In my view, for the reasons expressed by
Justice McDermott, the warrantless search crosses
the line in this case.
It is no answer to say that officers should use an
unarticulated “common sense” to circumscribe their
broad discretion. No one advocates senseless law
enforcement activity. But unarticulated “common
sense” may be a cover for other motives, and even
under the best of circumstances, may be a fertile
ground for implicit bias to operate.
In my view, for the above reasons and the reasons
expressed by Justice McDermott, the warrantless
search under this statute cannot be sustained. I
therefore respectfully dissent.

33a
McDERMOTT, Justice (dissenting).
Under the majority’s holding today, the legislature
might as well have said the following: “Drivers: go
ahead and use your phones for the uses we’ve
permitted you. Police: pull them over and interrogate
them if they do.” As unjust as that sounds—as unjust
as that is—it’s now the status of the law in Iowa after
today’s ruling.
When a defendant challenges the reasonableness of
a stop, the State must satisfy its burden with
evidence. Not assumptions, nor guesswork, nor
hunches. Whether a particular stop of a citizen is
reasonable depends on the totality of the
circumstances. In this case, there’s only one
circumstance: police officers saw a driver for about ten
seconds holding up and touching his phone. That’s it.
No swerving, no speeding, no other basis for the stop.
And on that fact alone, the court today holds as a
constitutional matter that it’s reasonable for law
enforcement to assume a driver is engaging in one of
a handful of prohibited uses of the phone—and not
one of the innumerable permitted uses—and thus
that it’s reasonable to stop and interrogate the driver.
Stopping a vehicle and detaining its occupants
unquestionably constitutes a seizure under both the
Federal and Iowa Constitutions. State v. Tyler, 830
N.W.2d 288, 292 (Iowa 2013). It goes without saying
that private citizens following the law generally
should be free from government harassment. Yet
today’s ruling gives the State the authority to pull
over and interrogate any driver seen glancing at a
phone despite the State having no idea whether the
driver is actually breaking the law. We can’t excuse

34a
the State’s failure to establish reasonable suspicion
with evidence by accepting instead an assumption of
illegal conduct. The unconstitutional police power
sanctioned today should alarm anyone concerned
about the government’s reach into citizens’ private,
lawful activities.
The law at issue in this case, Iowa Code section
321.276, permits drivers far more lawful uses of their
phones than the majority acknowledges. Here’s the
text of the statute:
A person shall not use a hand-held
electronic communication device to
write, send, or view an electronic
message while driving a motor vehicle
unless the motor vehicle is at a complete
stop off the traveled portion of the
roadway.
Iowa Code § 321.276(2) (2019).
The statute defines electronic message this way:
“Electronic message” includes images
visible on the screen of a hand-held
electronic
communication
device
including a text-based message, an
instant message, a portion of electronic
mail, an internet site, a social media
application, or a game.
Id. § 321.276(1)(a). With its use of the word
“includes,” the statute describes “electronic message”
not with a statement of its exact meaning but rather
with nonexclusive examples. See Antonin Scalia &
Bryan A. Garner, Reading Law: The Interpretation of
Legal Texts 132 (2012) (stating that the verb to

35a
include “introduces examples”). And here, somewhat
awkwardly, the legislature’s phrasing provides
examples of an example: “ ‘Electronic message’
includes images . . . including a text-based message.”
Iowa Code § 321.276(1)(a) (emphasis added).
The reference to “images” must be read in the
context of the examples that illustrate it. This is
because, unless the operation is voice activated or
merely involves the volume buttons on the side of the
phone, every operation of a smart phone involves
images visible on the screen. Interpreting the term
“electronic message” so broadly as to prohibit every
smart phone operation that produces an image on the
display expands the statute far beyond the manner it
was written. If the legislature really intended such a
sweeping ban on phone use, it easily could have done
so. The simplest and most obvious way for the
legislature to create such a clear and allencompassing prohibition is by exclusion: “All uses
are forbidden except x.” But it didn’t. Instead, the
legislature carved the forbidden boundaries with
specific examples.
As a result, “images” must be interpreted in the
context of the six “electronic message” examples set
forth in the statute: text messages, instant messages,
email, internet sites, social media applications, and
games. Iowa Code § 321.276(1)(a). Those examples
generally bear some logical connection to the term
actually used in the statute: “electronic message.” See
Porter v. Harden, 891 N.W.2d 420, 427 (Iowa 2017)
(“The legislature is . . . entitled to act as its own
lexicographer,” but “when the legislative definition of
a term itself contains ambiguity, we should hesitate

36a
before veering too far from the common meaning of
that term.”). The word “message” connotes
communication with another party. See Message,
Black’s Law Dictionary, at 1186 (11th ed. 2019)
(defining message as “[a] written or oral
communication, often sent through a messenger or
other agent, or electronically (e.g., through e-mail or
voicemail)”). And this communication focus comports
with federal law too. Congress in the Federal Records
Act defines “electronic messages” as “electronic mail
and other electronic messaging systems that are used
for purposes of communicating between individuals.”
44 U.S.C. § 2911(c)(1).
Section 321.276, from its inception, has explicitly
permitted drivers to make various lawful uses of their
smart phones, including for GPS and navigation;
calls, including entering a name or dialing a phone
number; activating, deactivating, or initiating a
smart phone function; and receiving safety-related
information, including emergency, traffic, or weather
alerts. Compare Iowa Code § 321.276(2)(a), (b)(3)
(2010), with § 321.276(2)(a), (b)(3) (2020). But by
omission from the list of forbidden uses, the statute
permits far more.
When interpreting criminal statutes, “we have
repeatedly stated that provisions establishing the
scope of criminal liability are to be strictly construed.”
State v. Hearn, 797 N.W.2d 577, 583 (Iowa 2011).
“Blurred signposts to criminality will not suffice to
create it.” United States v. C.I.O., 335 U.S. 106, 142,
68 S. Ct. 1349, 1367 (1948) (Rutledge, J., concurring).
Doubts in penal statutes are resolved in favor of the
accused. State v. Conley, 222 N.W.2d 501, 502 (Iowa

37a
1974). The universe of phone uses left unstated and
unaddressed in the statute are all permitted uses.
A look at the smart phone applications (“apps,”
colloquially) that come preloaded on every iPhone (the
iPhone being the most popular smart phone in the
country based on market share) gives a sense of the
scope of the permitted uses. Out of the box, the iPhone
currently comes with forty-four preloaded apps.
Under the examples of forbidden uses stated in the
statute, drivers would be forbidden from using just
four: Messages (“text-based message”), Mail (“a
portion of electronic mail”), Safari (“internet site” web
browser), and Game Center (a “game”). Drivers are
thus permitted to use the other forty preloaded apps,
including Calculator, Calendar, Camera, Clock,
Compass, and Contacts—and those are just the
preloaded apps starting with C.
A driver may make unlimited use of a smart
phone’s alarm clock, flashlight, stopwatch, timer, and
magnifying glass features. A driver may check the
weather on the Weather app, download podcasts on
the Podcast app, set reminders on the Reminders app,
and create a grocery list on the Notes app. We’re far
from done with even the preloaded apps on the iPhone
that are permitted uses, and we haven’t touched on
the apps available for download from third parties. At
present, there are 1.85 million other apps available
for download on an iPhone through its App Store.
Users of Google’s Android phones have even more
options, with 2.56 million apps available through the
Google Play app. (And yes, searching and
downloading smart phone apps is itself a permitted
use while driving.)

38a
A driver may lawfully use the phone to play
streaming music or to select downloaded songs from a
music app. A driver may also use a phone app to order
food, trade stocks, shop for a book, check sports scores,
measure heart rate, turn on a home security alarm,
check in for a flight, read a newspaper article,
diagnose car troubles, transfer funds between bank
accounts, make a dinner reservation, pair a Bluetooth
accessory, calendar an appointment, view traffic
congestion reports, deposit a check, pull up digital
concert tickets, track calories . . . and on, and on.
One might well complain that all these permitted
uses under the statute could contribute to distracted
driving and its associated dangers. Yet we must
remember that it’s the province of the legislature, not
the courts, to make such policy choices and to
establish acceptable levels of risk on our roadways. In
exercising restraint against expanding the statute to
make criminal the thousands of uses its text does not
forbid, the judiciary upholds the constitutional
separation of powers “by ensuring that crimes are
created by the legislature, not the courts.” Matter of
Bo Li, 911 N.W.2d 423, 429 (Iowa 2018) (quoting State
v. Hearn, 797 N.W.2d 577, 585 (Iowa 2011)); see also
United States v. Wiltberger, 18 U.S. (5 Wheat.) 76, 95
(1820) (Marshall, C.J.) (“It is the legislature, not the
Court, which is to define a crime, and ordain its
punishment.”). A court’s own views about the
consequences that might result from the proper
interpretation of this or any other statute cannot
weaken our resolve. Particularly where the
legislature has spoken, “consequences cannot change
our understanding of the law.” United States v. Davis,

39a
588 U.S.
, , 139 S. Ct. 2319, 2335 (2019). Courts
must avoid the temptation of “reading the law to
satisfy their policy goals.” Id.
The majority opinion doesn’t suggest any
disagreement with an interpretation of the statute
granting such a wide assortment of permitted uses.
Instead, the majority’s analysis runs aground in its
assumption that most phone use while driving is one
of the few enumerated prohibited uses. Police officers
of course must rely on reasonable inferences grounded
in their experience and training as law enforcement
officers, but today’s holding doesn’t rest on any
evidence or assertion that the stop of this defendant’s
car was grounded in the officers’ experience or
training.
An officer positioned any normal distance from a
moving vehicle can’t see what particular phone
function a driver is using. Was the driver looking at
an email (a forbidden use) or a GPS map (a permitted
use)? Tapping the screen to hit send on a text
(forbidden) or to hit play on a song or a podcast
(permitted)? Swiping the screen to scroll comments on
a social media app (forbidden) or to scroll down a list
of driving directions (permitted)? In every instance,
the driver’s actions look exactly the same. Lacking
some extraordinary visual acuity to make out the
small screen on a moving vehicle, the officer is left to
guess. And guesswork, we have repeatedly said, can
never establish “reasonable suspicion” for a stop
under the constitution. See, e.g., State v. Tague, 676
N.W.2d 197, 204 (Iowa 2004); State v. Kreps, 650
N.W.2d 636, 641 (Iowa 2002); see also United States v.
Arvizu, 534 U.S. 266, 273, 122 S. Ct. 744, 750 (2002)

40a
(requiring law enforcement to have a “particularized
and objective basis for suspecting legal wrongdoing”
to establish reasonable suspicion for a stop).
The majority seeks to clothe its naked guesswork
about drivers’ unlawful phone use not with observed
or articulable facts but instead with a claim that such
a conclusion can be drawn from “common sense.” To
appreciate just how much of a load the term “common
sense” is required to carry, one need only count the
number of times the majority repeats the term in its
opinion: by my count, nineteen times. Having
repeated its claim that “common sense” permits the
conclusion that any ambiguous phone use while
driving can be reasonably assumed the illegal kind,
the majority conjures “reasonable suspicion” for such
police stops into existence.
This heavy conclusion collapses on the flimsy
scaffolding that the premise supporting it provides.
What the majority considers “common sense” tells us
more about the justices’ own beliefs about drivers’
phone use than it does any actual activity supporting
the stop. We must require more than smoky
incantations of “common sense” to give rise to such a
sweeping right for government intrusion. Reliance on
some sixth sense about the driver’s phone use—as
opposed to the officer’s actual articulable
observations—sets the reasonable suspicion bar on
the floor and, in my view, invites widespread abuse of
citizens’ constitutional rights.
What proportion of the many thousands of uses of
a smart phone by drivers are the forbidden variety? I
don’t know—and neither does the majority. The
survey data the majority cites (uncited by any party

41a
and absent from the record) certainly doesn’t answer
the question. The burden in proving a factual,
articulable basis to support reasonable suspicion for a
stop rests—as it always does, and always must—with
the State. State v. Tague, 676 N.W.2d at 204.
Cloaking a gut feeling with the words “common sense”
isn’t enough. “What it calls reasonable suspicion we
call suspicion.” United States v. Paniagua-Garcia, 813
F.3d 1013, 1015 (7th Cir. 2016) (Posner, J.). And mere
suspicion is insufficient for the State to infringe the
rights of law-abiding citizens under the constitution.
See, e.g., Tague, 676 N.W.2d at 204; see also Radley
Balko, There’s No Way to Enforce a Texting While
Driving Ban, CATO Institute: Commentary (Oct. 13,
2009),
www.cato.org/publications/commentary/theres-noway-enforce-texting-while-driving-ban
[https://perma.cc/2SLA-QFD5].
The facts of this case illustrate the absence of
reasonable suspicion for the defendant’s stop. The
police officers observed Struve holding up the alighted
phone at shoulder level for about ten seconds and
swiping a few times at the screen with his finger.
There’s nothing about the height level at which he
held the phone that makes Struve’s use somehow
more indicative of any forbidden use (e.g., viewing a
text message) than any permitted use (e.g., viewing
driving directions). Likewise, there’s nothing revealed
about the type of use from holding the phone for ten
seconds; some shorter or longer duration (if it had
been, say, five seconds or fifteen seconds) tells us
nothing about whether it’s a forbidden or permitted
use. One could easily spend an equal amount of time

42a
scrolling through posts on a social media app
(forbidden) as scrolling through a list of songs titles
on a music app (permitted), or typing a text
(forbidden) as typing an address for driving directions
(permitted). The same goes for swiping the screen
with his finger; both forbidden uses and permitted
uses where the driver swipes the screen appear
identical to an observer who can’t make out the
screen. “No fact perceptible to a police officer glancing
into a moving car and observing the driver using a
cellphone would enable the officer to determine
whether it was a permitted or a forbidden use.”
Paniagua-Garcia, 813 F.3d at 1014 (emphasis in
original).7
For section 321.276 to be enforced as written, the
observed driver would need to be moving slowly
enough for an officer to see inside the vehicle, to make
out the contents of the phone’s screen, and to come to
a conclusion about the phone function being
employed. That’s no easy task, but it’s conceivable in
some circumstances that an officer might be able to
accomplish it. It didn’t happen in this case, where the
officers instead admitted to being unable to make out
Although irrelevant for purposes of the reasonable suspicion
analysis upon which this case turns, Struve’s counsel conceded
at oral argument that his own claimed use of the phone while
driving—to scroll through photographs—was a forbidden use
under the statute. Not so. A driver viewing photos, without more,
is not violating section 321.276. The majority twice references
counsel’s admission but—correctly—doesn’t assert anywhere in
its opinion that viewing photos while driving actually violates
section 321.276. Struve never committed (nor even was charged
with) any violation of section 321.276 that the police officers
were investigating when they stopped his car.
7

43a
the contents of the phone’s screen. To conduct a stop,
the State must both have an articulable basis for their
suspicion of criminal activity and that articulable
basis must be objectively reasonable. State v. Salcedo,
935 N.W.2d 572, 579 (Iowa 2019). The stop in this
case, based on an observation only that the driver was
viewing and touching a screen, fails that test.
The majority concedes that today’s opinion aligns
us with the minority of courts that have addressed
this issue. Admittedly, cases from other jurisdictions
are of limited help in our analysis because each state
without a hands-free law has a slightly different
statute with varying permitted or forbidden uses. But
there’s a common thread in the case law running
directly counter to our court’s holding today. All but
one of the cases from other jurisdictions found
“reasonable suspicion” lacking where the police
couldn’t articulate a basis for the stop that suggested
the driver actually engaged in forbidden (as opposed
to permitted) use of the phone. See Paniagua-Garcia,
813 F.3d at 1014 (finding no reasonable suspicion
under Indiana’s statute); State v. Morsette, 924
N.W.2d 434, 438–40 (N.D. 2019) (finding no
reasonable suspicion under North Dakota’s statute);
Rabanalas-Ramos, 359 P.3d 250, 256 (Or. Ct. App.
2015) (finding no reasonable suspicion under
Oregon’s statute). The only phone case supporting
today’s holding is a court of appeals ruling from
Oregon—and it conflicts with the holding of another
Oregon court of appeals case. Compare Nguyen Ngoc
Pham, 433 P.3d 745, 747 (Or. Ct. App. 2018), with
Rabanalas-Ramos, 359 P.3d at 256.

44a
Lacking support from the more analogous phone
cases, the majority relies instead on vehicle
registration cases.
But those cases addressed
reasonable suspicion for police stops involving unique
vehicle registration issues, not use of smart phones
while driving, and thus involve a completely different
basis for articulating the reasonableness of a stop.
The reasoning in those cases doesn’t apply equally to
the issues informing reasonable suspicion in this case,
and thus they’re of minimal value to us.
While reasonable suspicion doesn’t require law
enforcement to rule out the possibility of innocent
conduct, Kreps, 650 N.W.2d at 642, the majority
treats an unsupported hunch—that most phone use is
the unlawful kind—as good enough to support a stop.
And that’s the real shortcoming of the majority’s
disposition in this case, which now authorizes that
police here and henceforth may rely on speculation
that a driver’s use is one of the illegal varieties
without any evidence that it really is. The assumption
that every driver’s ambiguous phone use is one of the
handful of forbidden uses is contrary to our precedent,
in which we’ve said that criminality “is never
presumed.” Kutchera v. Graft, 191 Iowa 1200, 1209,
184 N.W. 297, 301 (1921). Now, apparently, we can
assume criminality whenever a driver glances at or
touches a phone screen without knowing anything
more.
The majority complains that requiring the police to
possess specific and articulable grounds that a
driver’s phone use is one of the unlawful uses will
hamper enforcement of this statute. But this is as it
must be under our constitutional search and seizure

45a
protections. The constitution is “the supreme law” in
our State. Iowa Const. art. XII, § 1. Constitutional
protections are not held in abeyance or demoted to
second-class status simply because a legislative
enactment is difficult to enforce as written. Enforcing
a law like this one—with permitted phone uses and
forbidden phone uses that appear absolutely identical
to an observer—creates significant constitutional
challenges. See, e.g., Alan Lazerow, Near Impossible
to Enforce at Best, Unconstitutional at Worst: The
Consequences of Maryland’s Text Messaging Ban on
Drivers, 17 Rich. J.L. & Tech 1, 31– 38 (2010). But it
can never be the court’s job to expand the text of
criminal statutes to secure for the State greater ease
of some particular method of enforcement.
The statute itself severely restricts an officer’s
ability to investigate whether any offense occurred.
Subsection 3 of the statute states: “Nothing in this
section shall be construed to authorize a peace officer
to confiscate a hand-held electronic communication
device from the driver or occupant of a motor vehicle.”
Iowa Code § 321.276(3) (2019). By its terms, the
statute prevents the police from taking possession of
the phone to determine whether the type of use the
driver had been engaging in violated the law. So
where, as here, an officer has no idea whether the
driver’s use of a phone is one of the forbidden types,
the statute’s own enforcement restriction means that
the only way an investigatory stop could result in a
ticket is if the officer gets the driver to admit to
engaging in one of the forbidden uses. The roadside
stop and seizure of the driver in these situations, with
its seemingly complete reliance on self-incrimination,

46a
thus promotes little meaningful enforcement of this
statute while imposing significant incursions on
citizens’ liberty interests.
A prior version of the statute explicitly addressed
enforcement considerations by affirmatively barring
the police from making stops based solely on a
violation of this statute. When the legislature passed
Iowa’s first phone-related distracted driving law in
2010, the statute commanded that the police “shall
not stop or detain a person solely for a suspected
violation of this section.” Iowa Code § 321.276(5)(a)
(2011). Instead the statute could be enforced “only as
a secondary action when the driver of a motor vehicle
has been stopped or detained for a suspected violation
of another . . . law.” Id. The prior version thus
prevented the constitutional infringement at issue in
this case. But the Legislature revised the statute in
2017 and eliminated this language. See Iowa Code
§ 321.276 (2018).
Many states have passed laws taking a clearer,
more categorical, approach that forbids all phone use
while driving except for voice-activated or “handsfree” operation. Hands-free laws (as the name
implies) prohibit all drivers from using hand-held
phones while driving. With hands-free laws,
reasonable suspicion does exist for police stops based
on drivers looking at their phone screens because all
uses that involve looking at the screen while driving
are unlawful. Such laws help address the enforcement
problem section 321.276 presents with its few
restricted uses and broad universe of permitted uses.
The willingness to engage in unfounded
assumptions that ambiguous conduct is criminal

47a
conduct opens the door to many other unlawful stops
being upheld. Say, for instance, an officer sees a
driver take a drink from a can with the can’s label
obscured by the driver’s hand. Is it a can of beer or a
can of pop? As with the driver’s cell phone use in this
case, the officer is left to guess whether the conduct is
the forbidden type. Under the reasoning adopted
today, the possibility it might be beer and not pop,
however remote, would justify stopping the driver.
See Paniagua-Garcia, 813 F.3d at 1015 (describing a
similar hypothetical). Citizens concerned with
protection of their basic civil liberties might
justifiably wonder how, and where, the court draws
these lines moving forward.
Smart phones “are now such a pervasive and
insistent part of daily life that the proverbial visitor
from Mars might conclude they were an important
feature of human anatomy.” Riley v. California, 573
U.S. 373, 385, 134 S. Ct. 2473, 2484 (2014) (Roberts,
C.J.). It is not hyperbole to say that millions of lawabiding Iowans risk suffering the inconvenience,
humiliation, and violation of their rights that comes
with the sweeping stop-and-interrogate right granted
today to the government. Distracted driving is a
serious matter, “but so is the loss of our freedom to
come and go as we please without police interference.”
Navarette v. California, 572 U.S. 393, 414, 134 S. Ct.
1683, 1697 (2014) (Scalia, J., dissenting). Today’s
majority opinion risks infringing the constitutional
freedoms of law-abiding drivers based on nothing
more than suspicion. I respectfully dissent.
Christensen, C.J., and Appel, J., join this dissent.

48a
State of Iowa Courts
Case Number

Case Title

19-1614

State v. Struve

Electronically signed on 2021-02-19 11:27:55

49a
APPENDIX D
IN THE IOWA DISTRICT COURT IN AND FOR
CLINTON COUNTY
STATE OF IOWA,

No. FECR076297

Plaintiff,
vs.
STEVEN EDWARD
STRUVE,

VERDICT AND
ORDER REGARDING
PLEA AGREEMENT

Defendant.

This matter came on for trial on 10/12/19. The
Defendant appeared in person and with attorney
Harold DeLange. The State appeared by Assistant
Clinton County Attorney James McHugh.
At the outset of trial, the Defendant withdrew his
guilty plea and plea agreement filed 8/7/2019 without
objection from the State. The Court ORDERS that
said withdrawal of plea and plea agreement is
GRANTED.
Pursuant to the amended trial information herein,
Struve is charge in a two count trial information with
Count 1, POSSESSION OF A CONTROLLED
SUBSTANCE WITH THE INTENT TO DELIVER,
NAMELY METHAMPHETAMINE in violation of
124.401(1)(c)(6) of the Code of Iowa, a Class C Felony,

50a
and Count 2, FAILURE TO AFFIX IOWA DRUG TAX
STAMP, a Class D Felony, a violation of 453B.12,
Code of Iowa.
Struve moved to proceed to trial on the minutes of
evidence and attachments thereto. After engaging in
a colloquy with the him regarding the rights waived
by such an election, the Court granted the motion.
The minutes of evidence and attachments were
filed on 10/11/18 with additional minutes filed 4/2/19.
As to Count 1, the State must prove all of the
following elements of Possession Of A Controlled
Substance
With
Intent
To
Deliver,
Methamphetamine:
1.

On or about October 2, 2018, the defendant
knowingly possessed METHAMPHETAMINE,
a Schedule II controlled substance.

2.

The defendant knew that the substance he
possessed was METHAMPHETAMINE, a
controlled substance.

3.

The defendant possessed the substance with
the intent to deliver a controlled substance.

As to Count 2, The State must prove each of the
following elements of Drug Stamp Tax Violation:
1.

On or about October 2, 2018, the defendant
knowingly possessed, distributed, or offered to
sell METHAMPHETAMINE, a Chapter 453B
taxable substance.

2.

The METHAMPHETAMINE that defendant
possessed, distributed, or offered to sell did not
have permanently affixed to it a stamp, label or

51a
other official indication of payment of the state
tax imposed on the substance.
A reading of the minutes, additional minutes and
attachments discloses the following allegations,
which are taken as factual in this instance:
On October 2, 2018, Sturve [sic] was stopped for
texting while driving in the city of Clinton, Clinton
County, Iowa by city police officers. During the stop,
officers observed in plain view, a clear glass pipe
connected to a bong. The contents of the bong plus a
clear crystal substance found in a large baggie were
determined to be methamphetamine in an amount of
25.5 grams. No drug tax stamps were observed to be
located on the baggie. Laboratory testing confirmed
that the white powder found, was methamphetamine.
All of these events took place in Clinton County, Iowa.
Based on the above facts, the Court FINDS Struve
is GUILTY as charged in Amended Count 1 and
Count 2.
Sentencing is set for August 29, 2019 at 10:00 a.m.
State of Iowa Courts
Type:

OTHER ORDER

Case Number

Case Title

FECR076297

STATE OF IOWA VS STRUVE,
STEVEN EDWARD
So Ordered
/s/

52a
Stuart P. Werling, District Court
Judge, Seventh Judicial District
of Iowa
Electronically signed on 2019-08-12 14:55:53

53a
APPENDIX E
IN THE IOWA DISTRICT COURT IN AND FOR
CLINTON COUNTY
STATE OF IOWA,

)
)
Plaintiff, )
)
v.
)
)
STEVEN EDWARD )
STRUVE,
)
)
Defendant )

Case No. FECR076297
RULING ON
DEFENDANT’S
MOTION TO
SUPPRESS

A contested hearing on Defendant’s Motion to
Suppress was held on June 5, 2019. The State was
represented by Assistant Clinton County Attorney
James M. McHugh. Defendant was personally
present and was represented by attorney Harold J.
DeLange, II.
Defendant is charged as by Trial Information with
two counts: Count 1, Possession of a Controlled
Substance with Intent to Deliver, namely
Methamphetamine, in violation of Iowa Code
§ 124.401(1)(b)(7) and § 124.413 and has been
convicted of two prior felony drug offenses under
§ 124.411. Count 2 charges Defendant as an habitual
offender under Failure to Affix Iowa Drug Tax Stamp
on Taxable Substance, in violation of Iowa Code §
453B.3 and § 453B.12, and has been convicted of two

54a
prior felony offenses in this state or any other state
under Iowa Code § 902.8 and § 902.9
Defendant filed a Motion to Suppress claiming a
violation of the Constitution of the State of Iowa,
Article I, Section 8, as well as a violation of the United
States Constitution, 4th Amendment.
Specifically, Defendant argues he was stopped
without sufficient probable cause and the subsequent
warrantless search of his vehicle was without his
consent in violation of his rights to be free from
unreasonable search and seizure under the Iowa
State Constitution and the United States
Constitution as set forth above. As a result,
Defendant requests that all evidence obtained as a
result of the stop be suppressed. The State resists,
contending Defendant’s rights were not violated.
The court has now heard the arguments of counsel
and reviewed the court file, including State’s Exhibit
1, which is Officer Schumacher’s body camera video;
State’s Exhibit 2, which is Officer Blake’s body
camera video; and State’s Exhibit 3, which is the
squad car video. The court heard testimony from
Officers Shumacher [sic] and Blake. The court finds
the following facts and conclusions of law.
FINDINGS OF FACT
Around 9:00 p.m. on October 2, 2018, Clinton Police
Officers Schumacher and Blake were driving west
bound on Camanche Avenue. It was dark at this time
of the evening. This portion of the roadway is three
lanes. The unmarked squad car was slightly behind
and to the left of Defendant’s vehicle at this time.
Defendant’s vehicle was traveling within the speed

55a
limit and had all lights functioning. Both officers
observed there was light in the front seat
compartment of Defendant’s vehicle coming from the
cell phone Defendant was holding in front of his face
as he drove. Both officers testified they saw him
manipulating the cell phone. Officer Blake explained
this meant he could see Defendant’s thumb traveling
about the screen of the cell phone. He told Officer
Schumacher it was illegal to text and drive so they
determined to initiate a traffic stop. Defendant pulled
his car over.
Officer Schumacher approached the driver’s side of
the vehicle and Officer Blake approached the
passenger side of the vehicle. Neither officer
recognized the vehicle or the driver before pulling it
over; but once Officer Schumacher got to the driver’s
side and saw Defendant, he recognized Defendant. In
the car with Defendant was a female in the front
passenger seat and a dog in the rear seat. Officer
Schumacher explained to Defendant he was pulled
over because it was illegal to text on the cell phone
while driving. Defendant responded he did not know
it was illegal and he was searching his photo gallery
showing photos to his passenger.
Both officers were using their flashlights to
illuminate the interior of Defendant’s vehicle. Officer
Blake observed what he thought was a meth pipe in
the back seat in plain view. He alerted Officer
Schumacher he saw a meth pipe. Officer Schumacher
looked and thought he saw the neck and top of a bong.
Both items are considered drug paraphernalia.
Once this drug paraphernalia was observed, the
officers decided to have the passengers exit the

56a
vehicle and then conduct what they called a probable
cause search of the vehicle. The passenger was
removed first and was told to sit on the curb slightly
behind the vehicle. Defendant was removed next and
sat next to the female passenger. Defendant asked if
he could retrieve the dog. The officers agreed and
Defendant returned to the car and began reaching in
the seats to find a leash. The dog was secured on the
leash and removed from the car to sit with the
Defendant and passenger. By this time, Sergeant
Lorenzen had arrived in a squad car.
Once the occupants of the vehicle were out of it, the
officers determined they had probable cause to search
because of the illegal paraphernalia they observed in
plain view in the back seat of Defendant’s vehicle.
Officer Schumacher searched the front compartment
and Officer Blake searched the rear compartment.
Officer Schumacher had trouble lifting the console lid
and discovered some screws were missing. It was
finally opened and underneath the tray of the console,
a quantity of methamphetamine and a digital scale
were found. Officer Blake’s search revealed the meth
pipe he saw was attached to the bong Officer
Schumacher had seen. Nothing else of evidentiary
value was discovered in the back compartment of the
vehicle.
The officers’ interactions were captured on their
body cameras and on the squad car camera, all of
which were admitted as exhibits without objection.
These videos all corroborated what the police officers
said took place. It is obvious when Defendant was
pulled over, he had the cell phone in his hand in front
of him. The screen was lit indicated it was in use.

57a
When told it was illegal to use the cell phone in Iowa
while driving, he said he did not know that and
thought it was just illegal in Illinois. He admitted to
using the cell phone while driving.
CONCLUSIONS OF LAW
The Fourth Amendment to the United States
Constitution and the Iowa Constitution both protect
individuals against unreasonable searches and
seizures. See Mapp v. Ohio, 367 U.S. 643, 655 (1961).
The State must prove by a preponderance of the
evidence that Officers Schumacher and Blake had
probable cause to make the stop. State v. Tague, 676
N.W.2d 197, 201 (Iowa 2004). “[I]t is well settled that
a traffic violation, however minor, gives an officer
probable cause to stop a motorist.” State v. Aderholdt,
545 N.W.2d 559, 563 (Iowa 1996). Once a lawful stop
is made, an officer may conduct an investigation
reasonably related in scope to the circumstances
which justified the stop. Id.
Here, the officers saw Defendant holding a cell
phone in front of his face and using his thumb on the
cell phone as if he were texting or searching. The
phone’s back light made the interior of the vehicle
visible to the officers. The officers believed
Defendant’s usage of the cell phone while he was
driving was a violation of Iowa Code § 321.276. Iowa
Code § 321.276(2) provides: A person shall not use a
hand-held electronic communication device to write,
send, or view an electronic message while driving a
motor vehicle unless the motor vehicle is at a
complete stop off the traveled portion of the roadway.
Here, it is undisputed Defendant was not stopped, but
was driving on the roadway.

58a
Section (a) of 321.276(2) further provides: A person
does not violate this section by using a global
positioning system or navigation system or when, for
the purpose of engaging in a call, the person selects or
enters a telephone number or name in a hand-held
mobile telephone or activates, deactivates, or initiates
a function of a hand-held mobile telephone. According
to the squad car video, Defendant told Officer
Schumacher he did not know his actions were illegal
and he was surfing his photo gallery showing photos
to his female passenger. This is not one of the
exceptions under Iowa Code § 321.276(2)(a).
The court finds the stop of Defendant’s car was
lawful. Officer Schumacher and Officer Blake had a
reasonable suspicion and belief that Defendant was
texting or improperly operating his cell phone when
they observed him manipulating the screen while
driving on a roadway. Iowa Code § 321.276 is a
primary violation giving officers the authority to pull
Defendant over under the belief Defendant violated
that statute. The statute does not provide an
exception for surfing a photo gallery as it does for
placing a telephone call, using GPS or a navigation
system, or deactivating a telephone call. Thus, the
officers stopped Defendant for a reasonable belief
Defendant violated Iowa Code § 321.276.
Once a lawful stop is made, a law enforcement
officer can conduct an investigation “reasonably
related in scope to the circumstances which justified
the interference in the first place.” Aderholdt, 545
N.W.2d at 563-64. In forming a basis for reasonable
suspicion, an officer may draw on his own experiences
and specialized training to make inferences from and

59a
deductions about the cumulative information
available to him that might elude an untrained
person. United States v. Ameling, 328 F.3d 443, 447
(8th Cir. 2003). The State must prove by a
preponderance of the evidence that the officer had
specific and articulable facts, which taken together
with rational inferences from those facts, led him to
reasonably believe criminal activity may have
occurred. State v. Tague, 676 N.W.2d at 204. Mere
suspicion, curiosity, or hunch of criminal activity is
not enough. State v. Kreps, 650 N.W.2d at 641.
Defendant elicited information from both officers
that they did not personally know if the cell phone
was checked to see what operation was being
performed when Defendant was stopped. Based on
Defendant’s admission, it was not necessary for the
officers to do this before stopping him as they had a
reasonable suspicion his activity of moving his thumb
back and forth across the lighted cell phone screen
was operating the cell phone in an illegal manner
upon a roadway.
More importantly to the issue in this motion to
suppress, when officers approached the vehicle, they
observed drug paraphernalia in plain view in the
backseat of the vehicle. Since seeing this drug
paraphernalia raised suspicions unrelated to the
traffic offense, the officers’ inquiry may be broadened
to satisfy those suspicions. See State v. Greene, 709
N.W.2d 535, 536 (Iowa 2006). The officers’ search of
the vehicle’s interior, including the center console,
was authorized due to their plain view of illegal
materials in the car and under the automobile
exception to the warrant requirement.

60a
Defendant argues the Iowa Supreme Court case of
State v. Ingram, 914 N.W.2d 794 (Iowa 2018),
supports his position that a warrant was required to
search the vehicle. This court disagrees. State v.
Ingram involved a warrantless search of a vehicle
that had been impounded and was an inventory
search. Id. at 820-21. An inventory search is a
completely different situation than a search based on
the plain view doctrine.
The case more on point based on these facts is State
v. Storm, 898 N.W.2d 140, 156 (Iowa 2017). There, the
Iowa Supreme Court held the automobile exception to
the warrant requirement is a bright-line rule and held
that exception allows automobile searches when there
is reasonable suspicion or probable cause without
obtaining a warrant.1 Based on that holding, this
court must find the officers’ search of the interior of
Defendant’s vehicle after seeing drug paraphernalia
in plain view as proper despite the lack of a warrant
or Defendant’s consent. Therefore, Defendant’s
The Court may have come to a different conclusion had the
search taken place after Defendant had been arrested. See State
v. Gaskins, 866 N.W.2d 1, 14 (Iowa 2015). In Gaskins, the Iowa
Supreme Court stated the automobile exception may not apply
if a Defendant is under arrest and unable to access anything in
the vehicle. Id. at 16. A search incident to arrest would give law
enforcement ample time to get a warrant without any exigent
circumstances arising from the fact it is a vehicle that is being
searched. Id. A vehicle could easily be impounded by the police
and then a warrant obtained before the search. The facts before
this court indicate Defendant was outside of the vehicle;
however, he was not arrested until after the additional evidence
was found in the vehicle. While this may seem to be an
inconsistent result, it is this court’s opinion this is the current
law.
1

61a
subsequent arrest and seizure of items found in the
vehicle, including the center console, were lawful.
For all of these reasons and the authority cited,
Defendant’s motion to suppress fails.
RULING
IT IS THEREFORE ORDERED, ADJUDGED AND
DECREED that Defendant’s Motion to Suppress is
DENIED in its entirety.
State of Iowa Courts
Type:

OTHER ORDER

Case Number

Case Title

FECR076297

STATE OF IOWA VS STRUVE,
STEVEN EDWARD
So Ordered
/s/
Marlita A. Greve, Chief District
Judge, Seventh Judicial District
of Iowa

Electronically signed on 2019-06-05 16:55:19

62a
APPENDIX F
IN THE IOWA DISTRICT COURT FOR
CLINTON COUNTY
STATE OF IOWA,
Plaintiff,

)
)
)
-vs) Case No. FECR076297
)
STEVEN E. STRUVE, )
Defendant.
)
)
TRANSCRIPT OF MOTION
The above-entitled matter came on before the
Honorable Marlita A. Greve on the 5th day of June,
2019, at the Clinton County Courthouse in the city of
Clinton, Iowa.
APPEARANCES
Plaintiff by:

JAMES M. McHUGH
Assistant County Attorney 400
West Fourth Street
Davenport, IA 52801

Defendant by:

HAROLD J. DeLANGE II
Attorney at Law
1503 Brady Street
Davenport, IA 52803

Jill R. Dankert
Certified Court Reporter
Scott County Courthouse
Davenport, Iowa 52801

63a
INDEX - WITNESSES
State's Witnesses
ROGER SCHUMACHER
Direct Examination By Mr. McHugh:
Cross-examination By Mr. DeLange:

1
8

CURTIS BLAKE
Direct Examination By Mr. McHugh:
Cross-examination By Mr. DeLange:

20
26

INDEX-EXHIBITS
State's Exhibits
1 Schumacher's body
camera video
2 Blake's body camera video
3 In-car camera video
Certificate of court reporter

Offered Received
8
25
26

8
25
26
34

64a
[1] PROCEEDINGS
(The following proceedings were held in open court
with the Court, counsel, and the defendant present.)
THE COURT: We are here in the matter of the
State of Iowa versus Steven Edward Struve. This is
case FECR076297. Mr. Struve is here along with his
attorney, Harry DeLange, and the State is present
through Assistant County Attorney James McHugh.
We're here today on the defendant's motion to
suppress evidence, which was filed on May 7th. I've
also received and reviewed the State's resistance to
the motion, which was filed on June 3rd.
Mr. McHugh.
MR. McHUGH: Thank you, Your Honor. The State
will begin by calling Roger Schumacher to testify.
ROGER SCHUMACHER,
called as a witness by the State, being first duly sworn
by the Court, was examined and testified as follows:
DIRECT EXAMINATION
BY MR. McHUGH:
Q

Can you state your name for the record?

A

Roger Schumacher.

Q

And how are you employed?

A I work
Department.

for

the

City

of

Clinton

Police

Q And can you briefly go over your background,
[2] training, and experience in law enforcement?
A I've been with the Clinton Police Department
for approximately 13 and a half years. I'm a graduate

65a
of the Iowa Law Enforcement Academy. I'm currently
assigned to the Street Crimes and Targeting
Enforcement Team within the Department.
Q I want to turn your attention to October the
22nd of 2018. What role were you employed in at that
time?
A Under my current assignment, member of the
S.C.A.T.T. team.
Q Now, were you involved in a traffic stop of a
vehicle driven by the defendant?
A

Yes, I was.

Q

How did that come about?

A We were driving on Camanche Avenue, and we
observed the vehicle to our right, in which the driver
was manipulating his cell phone while he was driving
down the street.
Q Now, Camanche Avenue, is that a two-lane
road, four-lane divided highway? What road is it?
A I want to say that portion has got three lanes,
but I'm not exact.
Q Okay. So you were -- when you say on your
right-hand side, they were driving in a different lane
than you?
[3] A

Correct.

Q And so were the vehicles side by side, or was
one ahead of the other, or what was the -A
us.

I believe the other vehicle was slightly ahead of

66a
Q Did you have a clear view into the passenger
compartment of that vehicle?
A I could just see the driver's -- the front seat was
illuminated by the light from the cell phone. I could
see that there were two occupants.
Q

All right. What time of night was it?

A

I believe it was just before 9 p.m.

Q

Which would have been dark then?

A

Yes, sir.

Q Okay. Were you able to -- so the lighted cell
phone was illuminating the compartment?
A

Correct.

Q

And what did you observe the driver doing?

A It appeared as if he was manipulating the
phone while it was in his hand.
MR. DeLANGE: I didn't hear the last part of that.
THE WITNESS: While it was in his hand.
BY MR. McHUGH:
Q Could you see the phone from your vantage
point?
A

I could not see what was on the screen, no.

[4] Q

Could you see the phone itself?

A

Yes.

Q

Where was he holding it?

A

It was held in front of his face.

Q Okay. And he was operating the vehicle; is that
correct?

67a
A

Yes, sir.

Q

What happened next?

A We initiated a traffic stop, and the vehicle, I
believe, pulled into the 200 block of 22nd Place.
Q

What happened upon stopping the vehicle?

A Upon making contact with the driver, who was
identified as Steven Struve, he was still manipulating
the cell phone in front of his person.
Q Did you have a conversation with him about
the cell phone and the use of it?
A Yes. I explained to him that we had stopped
him for that reason and that it was illegal to be
texting while he was driving down the road. Mr.
Struve indicated he did not know it was illegal in Iowa
and proceeded to say that he was going through his
gallery and showing photographs to his passenger.
Q

What happened after that?

A I asked Mr. Struve for his license, registration,
and proof of insurance. While he was collecting that
stuff, [5] my partner, Officer Blake, who was on the
passenger side of the vehicle, indicated that he could
see in plain view what appeared to be a meth pipe in
the back seat.
Q And I guess you testified to it, but you were not
alone, then. You had a two-man unit?
A

Correct.

Q Upon the statement by your colleague, what
happened next?
A Officer Blake had the passenger step outside of
the vehicle. Mr. Struve remained in the vehicle while

68a
he was trying to retrieve insurance information from
his cell phone.
Q

So how many occupants were in the vehicle?

A

There was two, and a dog.

Q

And what size dog are we talking about?

A I believe it was a young dog. It wasn't a small
puppy, but it was a young dog.
Q

Was it restrained in any fashion?

A

I believe it had a leash on, but I'm not certain.

Q Okay. Was it able to move about the
compartment?
A

In the passenger compartment, yes.

Q

So what happened next?

A After Mr. Struve provided the insurance
information, I asked him to exit the vehicle, and he
stood by with Sergeant Lorenzen, who had arrived on
scene.
[6] THE COURT: Okay. I couldn't hear the last
part of it. He what?
THE WITNESS: He stood by with Sergeant
Lorenzen, who had arrived on scene.
BY MR. McHUGH:
Q Now, at this point in time, you've testified that
Officer Blake had seen the meth pipe. Had you looked
for it at this point in time?
A Yes. When he initially indicated that he could
see a meth pipe, I looked in the back seat. I could not
see the meth pipe, but I could see what looked like the
neck, or the top of what I believed to be a bong.

69a
Q Now, moving forward, then. Once Mr. Struve
was removed from the vehicle, what happened next?
A We conducted a probable cause search of the
vehicle.
Q Was that conducted immediately, or was there
a delay for any reason?
A There was a delay until everybody was
removed and the dog was removed from the vehicle.
Q Once the dog was removed, what happened
next?
A

Then we began to check the vehicle.

Q

And where were you looking?

A I checked the front seat -- or the front
compartment of the vehicle.
[7] Q

What did you observe upon doing that?

A I attempted to open the center console. The
console would not open. It kept catching. I looked, and
it appeared as if the inner tray was attached to the
lid. After depressing the lever to release the lid, the
compartment fell back into place. I observed that
there was no factory screws in place with the inner
compartment and they had all been removed. I lifted
that tray, or inner compartment, and I observed two
digital scales and a plastic bag containing suspected
methamphetamine.
Q And that's the basis of the charge today,
correct?
A

Correct.

Q

Did you complete your search of the vehicle?

70a
A

Yes.

Q Were you involved in the seizing of the meth
pipe, bong item?
A Officer Blake removed that from a bag from the
back seat.
Q

Did have you a chance to see it in any detail?

A Yes. I believe it was -- the meth pipe was
attached to the bong.
Q So the item that you saw and the item that
Officer Blake saw, we're talking the same item?
A They were the same item. I just observed the
opposite end of it.
[8] Q

Different prospectives [sic]?

A

Correct.

Q

You have a body camera; is that correct?

A

Correct.

Q

Was it active on that day?

A

Yes, sir.

Q Did you have video from your body camera
phone on this traffic stop?
A

Yes.

MR. McHUGH: Your Honor, by parties
agreement, I'd offer into evidence State's Exhibit 1,
the body camera.
THE COURT: Do you have any objection?
MR. DeLANGE: No objection, Your Honor.
THE COURT: Yes, you may.

71a
MR. McHUGH: Thank you, Your Honor.
Now, I don't intend to play it. I'll leave it for the
Court's discretion.
I have no further questions of this witness.
THE COURT: You may cross-examine.
CROSS-EXAMINATION
MR. DeLANGE: Thank you, Your Honor.
BY MR. DeLANGE:
Q This was about nine o'clock at night on the 2nd
of October; is that correct?
A

Correct.

[9] Q
recall?

Was it completely dark or dusk; do you

A Not specifically, but at around 9 o'clock it
should be dark.
Q

Did you have your headlights on?

A

I believe so.

Q And the Bonneville, did it have its headlights
on also?
A I would assume so, unless we would have -- it
probably would have been part of the traffic stop.
Q Okay. Do you know if the Bonneville had tinted
windows or not?
A I don't believe so. I want to say that the window
was down.
Q

Which window?

A I guess it would be October. I don't -- I don't
recall there being tinted windows, sir.

72a
Q And there's nothing in your report about a
window being down, is there?
A

No.

Q And you reviewed your report prior to
testifying?
A

Just my report, yes.

Q Okay. And you were behind and to the left of
the vehicle; is that correct?
A

Correct.

Q And give me an idea how far behind. I mean,
where [10] was the front of your squad -- or was this
an unmarked car?
A

It was an unmarked car.

Q Where was the front of your vehicle in relation
to the Bonneville?
A Exact distance I wouldn't know, but we were in
a position that we were able to see into the driver's
window through an angle.
Q Do you remember whether or not the front of
your vehicle was even with any part of the Bonneville,
or was it behind the Bonneville?
A

That, I do not.

Q

Okay. Is there squad video?

A

Yes, there is, sir.

Q It's my understanding there will be squad video
that will be entered later today. Would that actually
give the position of the vehicles?
A

Yes, sir.

73a
Q All right. And did you -- you noticed, according
to your testimony, that the driver had his cell phone
up to his face; is that correct?
A

Correct.

Q Was it right in front of his face, off to one side
or the other?
A I could just see that he had a phone in front of
him and it was illuminated.
[11] Q And it was illuminated. And could you see
anything else relative to the phone before you made
the traffic stop?
A Just that it appeared that he was manipulating
it with his hand.
Q

What do you mean "manipulating it"?

A Like, with his finger across the screen. I could
not see what was on the screen.
Q Could you tell if it was an up-and-down motion
or side-to-side motion -A

No, sir.

Q -- or what we would normally describe as a
typing motion if you were texting? Could you tell
whether any of those actions were going on?
A

Not with certainty, no.

Q

Did you observe any other traffic violations?

A

No. Not at that time.

Q

The vehicle was going the appropriate speed?

A

I believe so.

74a
Q The vehicle was not swerving in its lane or
swerving across the line of traffic?
A

Correct.

Q Okay. And nothing else illegal about the
vehicle? It had the proper license plate and proper
lighting and those types of things?
[12] A

I believe so.

Q Were you familiar with this vehicle at all from
any prior contacts?
A

Not that vehicle, no.

Q Were you familiar with Mr. Struve from any
prior contacts?
A

Yes.

Q And when did you become aware that Mr.
Struve was driving the vehicle?
A

When I made contact with him at the door.

Q Did you know that Mr. Struve was driving the
vehicle prior to your stopping?
A

No, sir.

Q Now, you retrieved the cell phone that Mr.
Struve was using; is that correct?
A I believe Officer Blake collected some cell
phones, yes.
Q And would that have been one of the cell
phones that's in evidence that was collected?
A

I would assume so, yes.

Q And the traffic stop was approximately 8:52, it
looks like, according to your police report. Did you

75a
ever go through the cell phone to see if there were any
texts sent at 8:52 from this cell phone or received
approximately 8:52 from that cell phone?
[13] A

I did not, no.

Q

Do you know if anybody else did?

A

No, I do not.

Q When you stopped the vehicle, was Mr. Struve
cooperative?
A

Yes.

Q

Did he seem nervous at all?

A

Not specifically.

Q Okay. Anything out of the ordinary from any
other traffic stop that you deal with people?
A Other than the drug paraphernalia in the back
seat, no.
Q Okay. All right. And that was, actually, first
seen by Officer Blake and not yourself, correct?
A

Correct.

Q And when you were at the -- and I take it you
were at the driver's side window; is that correct?
A

Yes, sir.

Q And Mr. Struve was seated in the driver's seat,
correct?
A

Yes.

Q

Were the interior lights on in the car at all?

A

No, I don't believe so.

Q Was there any other illumination in the car
other than the cell phone?

[14] A

76a
At the time of the stop?

Q At the time you approached and were at the
window of the driver of the vehicle.
A

No. None other than, perhaps, our flashlights.

Q

Were you using your flashlight at the time?

A

Yes, because it was at nighttime.

Q And were you illuminating the inside of the
vehicle with your flashlight?
A I'm sure I illuminated the back seat after
Officer Blake notified me, but my focus was on Mr.
Struve when I was talking to him.
Q Would you have your flashlight on also at the
time you were talking to Mr. Struve?
A

I believe so.

Q

Would that be kind of standard procedure?

A

Yes, sir.

Q All right. Now, you were alerted that Officer
Blake had observed what he believed to be a meth
pipe, correct?
A

Correct.

Q And at that time it's my understanding that the
passenger was taken from the vehicle; is that correct?
A

Correct.

Q And was she -- what happened with her? Where
did she go?
[15] A I believe she was asked to sit down on the
curb along side the vehicle, just behind it.

77a
Q Okay. So she was outside the vehicle and away
from the vehicle?
A

Yes, sir.

Q And was Mr. Struve still in the vehicle at that
time?
A

Yes.

Q And, then, when was he removed from the
vehicle?
A I believe he was removed after he recovered his
insurance information from his cell phone.
Q And as I understand it, from your report, his
insurance information was in his phone.
A

Yeah, I believe so.

Q And he had to manipulate with his phone to get
to the insurance information?
A

Correct.

Q

And was his insurance current?

A

Yes.

Q So then once he does that, you take him out of
the vehicle; is that correct?
A

Yes, sir.

Q

And then what -- where does he go?

A

With the passenger.

Q And are they standing or seated outside the
[16] vehicle?
A I believe they were seated on the side of the
curb.

78a
Q Okay. And was this -- would this have been
behind the vehicle?
A

Yes.

Q Okay. And how far away from the vehicle were
they seated on the curb?
A I believe it would have been between our
unmarked squad and their vehicle.
Q Okay. And were there any other officers at the
scene at that time?
A

Sergeant Lorenzen had arrived on scene.

Q So now we have two squads and three officers
on the scene?
A

Correct.

Q Okay. And just out of curiosity, what happened
with the dog?
A I believe Mr. Struve removed the dog from the
vehicle.
Q

Where did you put the dog?

A

I believe he had it with him on a leash.

Q Okay. All right. And then you commenced to
search the vehicle once Mr. Struve was removed from
the vehicle?
[17] A

Correct.

Q And did Mr. Struve ever give consent to search
the vehicle?
A

No, sir.

Q

Did you ask him for consent?

A

No.

79a
Q Was there ever a warrant obtained to search
the interior of the vehicle or any contents of the
vehicle?
A

No, sir.

Q

And you searched the front seat, correct?

A

Correct.

Q And you say the -- you searched kind of the
middle container, the middle compartment, between
the two seats; is that right?
A

Yes. The center console.

Q These are bucket seats. This isn't a bench seat.
These are two bucket seats with a console in the
middle?
A I don't recall with that specific vehicle if there
was a drop-down console or not, but there was a
center console between the two front seats.
Q And as I understand it, you were having
trouble getting the top of the console open because you
had to hit a latch to open it up, correct?
A

Correct.

Q And then it is my understanding, also, that
when [18] you did that and you opened the console,
the actual container itself came up with the lid; is that
right?
A Yes. That's why it would not open, because
when I was lifting the lid, the inner compartment was
catching on the frame, per se.
Q Okay. And so then you retrieved the
contraband, what appeared to be methamphetamine,

80a
and scales. Were they underneath what would have
been the compartment itself?
A

Yes.

Q So they were, actually, in -- kind of more in the
car frame. It would have been underneath the -A

It was underneath the plastic tray, yes.

Q Did you retrieve anything else other than those
items?
A

I don't believe so.

Q And at some point Mr. Struve was placed in
handcuffs. Can you tell me when he was placed in
handcuffs?
A I believe Officer Blake secured him in cuffs. Or
he was secured in cuffs after the methamphetamine
was located.
Q

Okay. And was he arrested at that time?

A I believe he was advised that he was just
detained at that time.
Q Okay. What was the status of the passenger at
that time?
[19] A I don't recall. I believe Sergeant Lorenzen
was speaking with her.
Q Do you know whether she was ever detained or
arrested?
A She was not arrested. I don't recall if she was
detained in cuffs or anything.
Q Okay. But she -- just for clarity sake, neither
party had access to the vehicle at this time; is that
correct?

81a
A

Correct.

Q And neither party had access to the vehicle
when you began your search of the front seat; is that
also correct?
A

Correct.

MR. DeLANGE: I have no further questions.
Thank you.
THE COURT: Any redirect?
MR. McHUGH: No, Your Honor.
THE COURT: You may step down. Thank you.
THE WITNESS: Thank you.
MR. McHUGH: The State calls Curtis Blake to
testify, Your Honor.
[20] CURTIS BLAKE,
called as a witness by the State, being first duly sworn
by the Court, was examined and testified as follows:
DIRECT EXAMINATION
BY MR. McHUGH:
Q

Please state your name for the record.

A

Curtis Blake.

Q

And how are you employed?

A

With the Clinton Police Department.

Q And can you briefly go over your background,
training, and experience in law enforcement?
A I was hired for the City of Urbandale within the
State of Iowa in October of 2012. While there, I
completed the Iowa Law Enforcement Academy, went
through a few months of the FTO process and

82a
continued on with patrol until October of 2014, when
I transferred to the City of Clinton. I continued in
patrol capacity here until April of last year, when I
was transferred into the Street Crimes and Targeting
Enforcement Team.
Q And on October 2nd of 2018, would that have
been your position within the police department?
A

Yes, it was.

Q Were you riding with Officer Schumacher that
night?
A

Yes, I was.

[21] Q Were you involved in the traffic stop of the
defendant?
A

We were.

Q What did you observe at the outset of that
incident?
A Just before making the stop, we were traveling
westbound on Camanche Avenue. We were
overtaking, or passing the vehicle. The vehicle was on
the right-hand side. I was the passenger of our
vehicle. As we began to pass the vehicle, I noticed a
screen lighting up the inside of this vehicle. We
continued alongside of the vehicle for another ten or
so seconds. I was continuing to monitor the driver,
who was on, what appeared to be, a cell phone, and it
looked like he was manipulating the screen with his
thumb as he was driving. I told Officer Schumacher
the violation, and we conducted a traffic stop for the
texting while driving.
Q And so during this process, did you have a clear
view of the driver and what he was doing?

83a
A I could not see his face. I didn't pull up right
alongside of him. We were just behind him, so I wasn't
able to see his face, but I was able to view his hands
and the fact that his hand was up in front of his face
with the cell phone and that he was manipulating the
screen.
Q

And then that was the basis of the traffic stop?

[22] A
Q

Yes, it was.

What happened next?

A We approached -- Officer Schumacher
approached the driver. I approached the passenger
side. There was a female passenger in the vehicle. I
spoke with her as Officer Schumacher spoke with the
driver, the defendant. Per what we usually do for
officer safety concerns, I looked inside of the vehicle
for any potential weapons or any contraband. I
noticed in the back seat there was a bag. This bag had
a methamphetamine pipe, that was later determined
to be attached to a bong, protruding from this bag. I
alerted Officer Schumacher to the observed pipe, at
which point we determined that we were going to
remove both subjects from the vehicle and conduct a
probable cause search of the vehicle.
Q And were they the only two occupants of the
vehicle?
A

Yes, there were.

Q

Was there any other creatures in the vehicle?

A

There was a dog in the vehicle.

Q

And where was that dog located at the time you

were at the traffic stop?

A

84a
At the time it was in the back seat as well.

Q So after the humans were removed, what
happened next?
[23] A I believe the defendant wanted to remove
his dog from the vehicle, which I wasn't opposed to
because I didn't want the door to be open and the
animal to take off while we're also securing the scene.
So he was granted permission to remove the dog from
the vehicle in order for us to conduct the search.
Q Did he approach the vehicle again during this
time period?
A Yes. He returned to the vehicle. We were
looking for a leash, something to be able to hold on to
the dog aside from just grabbing on to its collar. We
were able to locate the leash. He was able to get the
dog out of the vehicle while we were able to continue
with the investigation.
Q All right. So once the passenger -- the
occupants and the dog were removed, what happened
next?
A A probable cause search was conducted of the
vehicle. Officer Schumacher removed -- or attempted
to remove the lid to the center console. It appeared
that the interior tray was stuck to the lid. So when he
was able to get the top removed, it fell back down in,
making it appear that it was easily removed. He was
able to remove said tray. Underneath, he located a
bag of a substance consistent with ice
methamphetamine.
Q

And where were you while he was doing this?

85a
[24] A I'm not 100 percent certain when he
located that. I believe the majority of my search was
in the rear of the vehicle, where I located the
paraphernalia. He was toward the front of the vehicle,
looking through where the driver could reach and
such.
Q So while he's searching the front, you're
searching the back?
A

Yes. For the most part.

Q And so, then, you locate the
paraphernalia that you had spotted earlier?
A

drug

Yes.

Q And you described it again before, but can you
describe it again when he took it out of the bag?
A Yes. Once it was removed from the bag, I
noticed -- when I first saw it, it looked like a
methamphetamine pipe protruding from the bag.
Once I was able to open the bag and look at it, there
was also a large neck for, what appeared to be, a bong.
The methamphetamine pipe was attached to that
bong, making it a methamphetamine bong. Within
that same bag, there was also a notebook with an
email with the name "Steven Struve" on there, as well
as other passwords -- or what appeared to be
passwords within it, and an Xbox.
Q Did you continue on with your search after this
point in time?
[25] A I believe we thoroughly searched the
vehicle, even after finding the methamphetamine and
the drug paraphernalia.

86a
Q Now, you had a body camera during this time
period?
A

Yes.

Q

And was that activated?

A

Yes, it was.

Q And was there a video of your interactions with
the defendant on that night?
A

Yes, there is.

MR. McHUGH: Your Honor, by stipulation, I offer
into evidence State's Exhibit 2, the body-worn camera
of Officer Blake.
THE COURT: Any objection?
MR. DeLANGE: No objection, Your Honor.
THE COURT: Exhibit 2 is admitted.
BY MR. McHUGH:
Q Now, is your squad vehicle equipped with a
squad camera?
A

Yes, it is.

Q And was that squad camera functioning that
night?
A

Yes, it was.

Q

Did that capture video from this interaction?

A It captured the 30 seconds prior to us engaging
[26] our lights, which would also include, on that
camera, observations of the defendant using his cell
phone while driving.

87a
MR. McHUGH: Your Honor, I'd offer into evidence
State's Exhibit 3, the in-car camera from the traffic
stop.
MR. DeLANGE: No objection, Your Honor.
THE COURT: Exhibit 3 is admitted.
MR. McHUGH: No further questions. Thank you.
THE COURT: You may cross-examine.
MR. DeLANGE: Thank you, Your Honor.
CROSS-EXAMINATION
BY MR. DeLANGE:
Q You were the passenger in the squad; is that
correct?
A

That's correct.

Q And as I understand it, this is an unmarked
squad car, correct?
A

That is correct.

Q

And was your windows up or down?

A

I do not recall. I believe they were up.

Q

All right. Is there any tint on the windows?

A

No. Not in ours.

Q Do you know if the Bonneville had any tint on
its windows?
A

Not perceivably at the front of the vehicle.

[27] Q And do you know whether the Bonneville's
windows were up or down?
A

I cannot recall.

88a
Q And you were passing the vehicle -- the
Bonneville, as I understand it, and kind of stayed side
by side, or as close as you could, for about ten seconds
before you activated your squad lights to pull the
vehicle over; is that correct?
A Slightly longer. It's in the video. The video goes
back 30 seconds, so you can actually see from the
video where we move into the left lane; upper vehicle.
So it's about 30 seconds of us beginning to pass the
vehicle. But you can see about 10 or 15 seconds or so
where we're alongside of the other vehicle.
Q Were you familiar with that vehicle at all prior
to this accident?
A I was not. The license plate was not ran or
anything prior to us conducting the stop.
Q Did you observe any other illegal activity or
traffic violations committed by that vehicle?
A

No, not at the time.

Q And you said that you could see that there was
a cell phone that was held up around Mr. Struve's
face; is that correct?
A

Yes. It was up in front of his face.

[28] Q

Straight in front, or just kind of face high?

A Up in front of the steering wheel, pretty much
directly in front of his face.
Q Even though that was happening, was the
vehicle swerving or driving recklessly at all?
A The vehicle was observed bouncing back and
forth within its own lane. So he was maintaining his
lane. Not, necessarily, any type of violation, but it was

89a
noted that the vehicle was kind of bouncing around,
back and forth.
Q And you said that you could tell that the cell
phone was being manipulated. Can you tell -- be more
specific with that?
A Yes. I believe it was in his left hand. And I was
able to see his thumb moving back and forth in front
of the screen. It was dark outside. It was a very bright
light, being the screen. I was able to see his thumb
moving back and forth in front of it.
Q Was it an up-and-down motion, side to side, or
both?
A It was just moving back and forth. I can't say
up or down or anything. You know, up and down, you
know, from a distance is difficult to determine, but
you could just see the thumbs moving.
Q Does the squad video give a good indication of
that?
[29] A
Q

I do not recall if it does or not.

Did you retrieve the phone?

A That specific phone? We retrieved three phones
from that stop. I believe we would have.
Q Did you check, or did anybody check, as to
whether or not there was a text message sent at the
time of the stop, or a text message received at the time
of the stop?
A I do not recall the details of the phone itself. I
remember obtaining search warrants. I do not
remember if we were able to obtain anything
specifically. I'd have to review.

90a
Q So you don't -- as you sit here today, you can't
say whether there were any text messages sent or
received?
A

As of today, I'm not able to say, no.

Q Okay. So you make the stop and you go up to
the passenger side of the car; is that right?
A

Yes, sir.

Q

And are you using your flashlight?

A

Yes.

Q

Are you illuminating the inside of the vehicle?

A

Yes, I am.

Q

And you observe the passenger, correct?

A

Yes, I do.

Q

Do you have interactions with the passenger?

A

Yes, I do.

[30] Q Question her and get some information
from her?
A

Yes, sir.

Q And then you see what you believe to be a meth
pipe protruding from a bag in the back seat, correct?
A

That is correct.

Q And you observed -- or you inform the other
officer of that, Mr. Schumacher, correct?
A

That's correct.

Q

And then what do you do after that?

A Both subjects were removed from the vehicle.
Prior to, or very shortly into conducting the search,

91a
the dog is requested to be removed, and is removed,
and then we continue with the search.
Q Okay. So when you initiate the search, are both
of the individuals, the people, outside the vehicle,
seated on the curb?
A

Yes, they are.

Q

Do they have any access to the vehicle?

A
dog.

Yes. When he's allowed to return to retrieve his

Q

Other than that?

A

Other than that, no.

Q And when he was allowed to retrieve the dog
and get a leash for the dog, were you with Mr. Struve
the entire time?
[31] A Yes. I think -- I recall telling him multiple
times that after he begins searching around, between
seats and underneath seats and stuff like that, that I
will search for him for the leash because I do not know
where he's reaching or anything.
Q You wouldn't want him trying to destroy
evidence or anything like that.
A Well, essentially, at that point, pull out a
weapon that I cannot see.
Q Okay. Do you know whether that would -- the
retrieval of the dog and the leash, did that take place
before the methamphetamine was found?
A

Yes, it was.

Q All right. So he was already back out, sitting at
the curb at that time?

92a
A

That is correct.

Q

With his dog, from what I understand.

A

Yes, sir.

Q Did Mr. Struve ever give consent to search the
vehicle?
A

He did not.

Q

Did you ever ask him for consent?

A

I do not recall. I believe I did not.

Q Did you ever get a warrant to search the
vehicle?
A

I did not.

[32] Q
A

Do you know if anybody did?

No, not for the vehicle.

MR. DeLANGE: I have no further questions, Your
Honor.
THE COURT: Anything further?
MR. McHUGH: No, Your Honor.
THE COURT: You may step down. Thank you.
THE WITNESS: Thank you, Your Honor.
MR. McHUGH: The State has no additional
witnesses, Your Honor.
MR. DeLANGE: We have no witnesses, Your
Honor.
THE COURT: All right. Does either side want to
make any arguments?
MR. McHUGH: Your Honor, I would rely upon my
--

93a
THE COURT: Brief?
MR. McHUGH: -- brief that I filed.
MR. DeLANGE: In response to the brief, Your
Honor, I note that the case that Mr. McHugh attached
to his resistance was a court of appeals case decided
on June 20th of 2018, which was, approximately, nine
days before the State -- supreme court decided Bion
Ingram. And I don't have the specific Northwest cite
on that. It's No. 16-0736.
THE COURT: What was the name of that one?
MR. DeLANGE: State v. Bion Blake Ingram.
I-n-g-r-a-m. And I believe it's our argument that
that case [33] puts much greater strictures on the
search of a motor vehicle when the participants are
removed from the vehicle, and puts much greater
strictures on the warrantless searches on vehicles,
Your Honor, or items contained in the vehicle.
THE COURT: And that's a supreme court case?
MR. DeLANGE: Yes, Your Honor. It's decided
June 29, 2018.
THE COURT: Okay. Anything else?
MR. DeLANGE: That's it.
THE COURT: All right. I'll take a look at all
this and I'll issue a written ruling as soon as I can.
MR. DeLANGE: Thank you, Your Honor.
THE COURT: When is your trial?
MR. DeLANGE: We don't have a trial date yet,
Your Honor.
THE COURT: All right. Great. Thank you.

94a
MR. McHUGH: Thank you.
(This matter concluded at 2:36 p.m.)

95a
CERTIFICATE TO TRANSCRIPT
IN THE IOWA DISTRICT COURT
FOR CLINTON COUNTY
STATE OF IOWA,
Plaintiff,
-vsSTEVEN E. STRUVE,
Defendant

)
)
) Case No. FECR076297
)
)
) CERTIFICATE
)
)

The undersigned, one of the official shorthand
reporters in and for the Seventh Judicial District of
Iowa, which embraces the county of Clinton, hereby
certifies:
That she acted as such reporter in the aboveentitled cause in the District Court of Iowa in and for
Clinton County, before the Judge stated in the title
page attached to this transcript, and took down in
shorthand the testimony and proceedings had on said
hearing.
That the foregoing pages of typewritten matter are
a full, true, and complete transcript of said shorthand
notes so taken by her in said cause, and that said
transcript contains all of the testimony offered and
proceedings had on said matter at the times therein
shown.
That said transcript was ordered by Attorney
Melinda J. Nye on October 9, 2019, and that said
transcript was signed and delivered on November 8,
2019.

96a
/s/ Jill R. Dankert
Jill R. Dankert, CSR, RPR, RMR
Official Court Reporter
Seventh Judicial District of Iowa

97a
APPENDIX G
IOWA CODE § 321.276
USE OF ELECTRONIC COMMUNICATION
DEVICE WHILE DRIVING
1.

For purposes of this section:

a. “Electronic message” includes images visible on
the screen of a hand-held electronic communication
device including a text-based message, an instant
message, a portion of electronic mail, an internet site,
a social media application, or a game.
b. “Engage in a call” means talking or listening on
a mobile telephone or other portable electronic
communication device.
c. “Hand-held electronic communication device”
means a mobile telephone or other portable electronic
communication device capable of being used to write,
send, or view an electronic message. “Hand-held
electronic communication device” does not include a
voice-operated or hands-free device which allows the
user to write, send, or view an electronic message
without the use of either hand except to activate or
deactivate a feature or function. “Hand-held
electronic communication device” does not include a
wireless communication device used to transmit or
receive data as part of a digital dispatch system.
“Hand-held
electronic
communication
device”
includes a device which is temporarily mounted inside
the motor vehicle, unless the device is a voiceoperated or hands-free device.
d. The terms “write”, “send”, and “view”, with
respect to an electronic message, mean the manual
entry, transmission, or retrieval of an electronic

98a
message, and include playing, browsing, or accessing
an electronic message.
2. A person shall not use a hand-held electronic
communication device to write, send, or view an
electronic message while driving a motor vehicle
unless the motor vehicle is at a complete stop off the
traveled portion of the roadway.
a. A person does not violate this section by using
a global positioning system or navigation system or
when, for the purpose of engaging in a call, the person
selects or enters a telephone number or name in a
hand-held mobile telephone or activates, deactivates,
or initiates a function of a hand-held mobile
telephone.
b. The provisions of this subsection relating to
writing, sending, or viewing an electronic message do
not apply to the following persons:
(1) A member of a public safety agency, as defined
in section 34.1, performing official duties.
(2) A health care professional in the course of an
emergency situation.
(3) A person receiving safety-related information
including emergency, traffic, or weather alerts.
3. Nothing in this section shall be construed to
authorize a peace officer to confiscate a hand-held
electronic communication device from the driver or
occupant of a motor vehicle.
4. a. A person convicted of a violation of this
section is guilty of a simple misdemeanor punishable
as a scheduled violation under section 805.8A,
subsection 14, paragraph “l”.

99a
b. A violation of this section shall not be
considered a moving violation for purposes of this
chapter or rules adopted pursuant to this chapter.
5. The department, in cooperation with the
department of public safety, shall establish
educational programs to foster compliance with the
requirements of this section.

